<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                        THURSDAY, APRIL 10, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:37 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Pete V. Domenici (chairman) 
presiding.
    Present: Senators Domenici and Reid.

                          DEPARTMENT OF ENERGY

                 National Nuclear Safety Administration

STATEMENT OF AMBASSADOR LINTON F. BROOKS, UNDER 
            SECRETARY FOR NUCLEAR SECURITY, 
            ADMINISTRATOR FOR NATIONAL NUCLEAR SECURITY 
            ADMINISTRATION
ACCOMPANIED BY:
        ADMIRAL FRANK L. BOWMAN, DEPUTY ADMINISTRATOR FOR NAVAL 
            REACTORS
        DR. EVERET H. BECKNER, DEPUTY ADMINISTRATOR FOR DEFENSE 
            PROGRAMS
        KENNETH E. BAKER, DEPUTY ADMINISTRATOR FOR DEFENSE NUCLEAR 
            NONPROLIFERATION

             OPENING STATEMENT OF SENATOR PETE V. DOMENICI

    Senator Domenici. The hearing will please come to order. 
Thank you, everyone, for being here, and I apologize for my 
being late. I had another hearing and I hurried as much as I 
could.
    Senator Reid. You are only 7 minutes late. That is not 
late.
    Senator Domenici. That is pretty good, yes.
    The budget request for NNSA is $8.834 billion. That is an 
increase of $870 million over the current year level, an 11 
percent increase. It is containing the following major program 
elements, one, nuclear weapons activities. The budget request 
is--excuse me--is $6.378 billion, an increase of $642 million, 
an 8 percent increase. We have, in addition, defense nuclear 
nonproliferation, naval reactors, and the Office of the 
Administrator.
    First of all, the committee will review the fiscal year 
2004 request for the National Nuclear Security Administration, 
that will include nuclear weapons activities, nuclear 
nonproliferation programs, and the naval nuclear propulsion 
program.
    In that regard, we will receive testimony from Ambassador 
Linton Brooks, acting Administrator for NNSA. We thank you for 
coming and you are doing an excellent job. We are glad to have 
you here.
    Admiral Frank Bowman, Deputy Administrator for Naval 
Nuclear Propulsion. Thank you so much, Admiral, and once again 
our compliments to you for the fine work you are doing.
    And Dr. Everet Beckner, Deputy Administrator for Defense 
Programs. Good to have you.
    And Mr. Kenneth E. Baker, acting Deputy Administrator for 
Defense Nuclear Nonproliferation. Welcome to all of you.
    For fiscal year 2004, I have already indicated the budget 
request is about $8.8 billion, an increase of 11 percent. By 
all accounts, this is a good budget, continuing a trend that 
began last year. The budget is consistent with the 5-year 
budget program, which we required the NNSA to develop when we 
passed the Act. The transition to a 5-year budget plan has been 
challenging, and I am certain that it has been very challenging 
to all of you here in this room and those who work with you and 
for you. But I believe it is an important tool in developing 
strong support for the NNSA budget inside the Office of 
Management and Budget.
    Within the NNSA budget, $6.38 billion is requested for 
nuclear weapons activities in 2004. This is an increase of $462 
million, 8 percent, over the current year. For nuclear 
nonproliferation, the budget request is $1.34 billion, an 
increase of $319 million, 31 percent. The most notable increase 
within this budget is $272 million to start construction of the 
plutonium disposition facilities in South Carolina.
    However, I do not believe the budget provides enough 
funding to do everything that NNSA could be doing to protect us 
from the dangers of nuclear terrorism. That is a key reason 
that Senator Reid and I worked to provide an additional $150 
million for nuclear nonproliferation in the Homeland Security 
supplemental, Senator, and which you even thought we should add 
to that, Senator Reid.
    Finally, the activities of the naval nuclear propulsion 
program, that budget request is $768 million. That is an 
increase of $66 million. That is an 8 1/2 percent increase. 
This program continues its tradition of being one of the best 
run in our national Government.
    I look forward to engaging each of our witnesses today and 
working with you, the members of the subcommittee, to put 
together the best possible appropriation bill that we can.
    I would like to briefly address the situation of the last 
few months at Los Alamos, in my home State of New Mexico, by 
saying what others have concluded, that the laboratory has been 
managed well in a number of key areas, in particular the 
management of its business and acquisition systems and in 
performing internal audits and assessments. I should have said 
``not managed well in those areas.'' The lab has made some 
mistakes, and I am engaged with the Secretary and the NNSA as 
to how best to fix those mistakes.
    I will say as an aside, the interim director, Pete Nanos, 
is doing a great job. Everybody associated with his current 
tenure, albeit short-lived, seems to be saying the same thing.
    But this turbulence during the last several months has 
encouraged many long-term opponents of the lab and its nuclear 
weapons mission to come out of the woodwork. Many people seem 
to be talking about Los Alamos only in a pejorative way. But I 
do not want to forget that the laboratory has a great deal of 
merit on its side. They have done many incredible things in the 
last 60-year history that have earned them the reputation of 
being the premier scientific laboratory in the world.
    From the darkest hours of World War II through the Cold War 
to today, the laboratory at Los Alamos has typified America's 
scientific might in a range of activities from the human genome 
to nuclear weapons. It has always represented the best that the 
country has. So we will work through these current problems.
    Later this year, I intend to conduct hearings on all of the 
laboratories, their roles, and missions. This will be done 
wearing another hat, a hat of the Authorizing Committee of--for 
the Energy and Natural Resources of the United States Senate. 
Part of that process will include a reevaluation of how we 
manage all of the laboratories, clarification of the 
responsibilities that lay with the Secretary, the NNSA, the 
contractors, such as the University of California, and the lab 
directors.
    In many ways, I fear that the way the DOE manages its labs 
has become too complex and confused, and I am hopeful that 
within a year or so with these hearings, in-depth hearings, we 
will eliminate some of that confusion and come forth with some 
more simplified approaches.
    We ought to find ways to strengthen the management at Los 
Alamos and other ways that are going to be appropriate in 
making it better for our future. I do not think we can afford 
to do anything less.
    With that, I yield to my good friend and distinguished 
Senator from Nevada, Senator Reid.

                    STATEMENT OF SENATOR HARRY REID

    Senator Reid. I served on this subcommittee for many years, 
and following the retirement of Bennett Johnson I have been 
ranking Democrat and oftentimes the chair of this subcommittee. 
And the Senator from New Mexico and I have developed a very 
fine relationship.
    And let me say to each of you, this National Nuclear 
Security Administration is something that I did not favor. I 
thought it was unnecessary. The Nuclear--the National Nuclear 
Security Administration is, basically, a product of the mind of 
Senator Domenici. Other people may have worked with him on 
this, but basically it was his idea, and he was the reason it 
went forward. And as I announced last year at this same 
meeting, I am now a convert. I think it has worked extremely 
well. We have had good people who have been administering this 
program, an interesting new program we have here.
    So, anyway, Senator Domenici, I appreciate your having done 
this. You were visionary in being able to do it.
    I would also say this: Senator Domenici mentioned the labs. 
I do not know if the people of this country--the people of the 
State of New Mexico, are really aware of what has been done by 
Senator Domenici and these laboratories. But for him, I can 
remember as a relatively new member of this subcommittee, of 
him talking with Senator Johnson about the labs, and that the 
real science being conducted in this country is in the labs. 
And some of the greatest scientists in the world are in these 
laboratories.
    So, certainly, the people of New Mexico should be aware of 
the fact that Senator Domenici has worked so hard and done so 
much to keep these labs funded, even in trying times to cut 
back these funds. And there have been fires, and scandals, and 
all kinds of things, but through it all the labs have come out 
just fine.
    Last year I raised a variety of concerns about the 
administration's request for this agency. I felt that the 
requests for the pit production program was short of what was 
required to meet our milestones for the critical stockpiles 
stewardship program. Senator Domenici and I worked together 
last year, as we always do, and raised the budget for pit 
production high enough to keep the program on track. We were 
able to keep that additional funding in conference also.
    I do not have the same concern this year. Actually, the 
President's budget has me very pleasantly surprised. I think it 
is a--this is fine. I see there are no gaping holes in the 
request. As we move closer to markup, I am sure there will be 
some modifications or requests here and there, but I do not 
expect anything as dramatic as the last few years.
    That having been said, there are certain things that you 
have deleted from a variety of programs that have significant 
member interest, and there will be tremendous pressure on us, 
and rightfully so, to find--to fund these items within our 
overall total. Maybe we can find some extra money; but the way 
things are going, that is doubtful. And with the budget as 
tight as I expect it to be, we may be forced to accommodate 
them within the total of the money that we have and you have 
given us.
    Many of the items that you have deleted are programs that 
have been funded year in and year out and have proved 
invaluable contributors to our national defense. And so if you 
see fit to delete them, that does not mean that we will.
    I am always concerned and, I guess, it is Federal 
Government that you have to get used to, is that if it has not 
been done before, you do not do it. And there are certain 
things that we have to continually improvise to meet exigencies 
of a situation that develops, especially in an agency like 
this.
    So, and the last thing that I would like to say, is that 
even though I know that you have tremendous pressure from OMB, 
we want you to also understand that we have tremendous brain 
power down here also. The staff that we have behind us are 
experts. They do a wonderful job in making sure the legislative 
branch of Government competes as it should constitutionally 
with the executive branch of Government. And all of the wisdom 
of the world is not within the executive branch of Government.
    A couple more thoughts before I close. You requested 
funding for an advanced concepts initiative for nuclear 
deterrents which seems to expand on funding you sought and 
received last year. So this is something we have to really be 
careful on, careful about. We will examine this very closely. 
The authorizing committee will consider this program in 
expansional length when they mark up their bill, and we are 
going to watch to see what comes out of that authorizing 
committee.
    I would also like to make sure that you give us all you can 
on this 18-month test readiness posture. It is something 
important for the country and the world, and we would hope that 
you would give us the benefit of your thoughts in that regard.
    Mr. Chairman, I am going--as I have indicated to you, I am 
going to have to leave in a little bit. So I would ask your 
permission to submit written questions and that the witnesses 
get these back to us within 2 weeks.
    Senator Domenici. We will do that, and if the witnesses 
will respond within 2 weeks. Thank you very much for your kind 
remarks and for your overall assessment.
    We will start with you, Mr. Ambassador. You have heard so 
many nice words, maybe you do not even have to testify. Maybe 
you can just sit there and smile.

                     STATEMENT OF LINTON F. BROOKS

    Ambassador Brooks. Well, Mr. Chairman, actually I am 
gratified to know that we are thinking of the same things, 
because you gave much of my statement. So I will abbreviate it 
even further.
    Thank you, Mr. Chairman and Senator Reid, for the 
opportunity to appear. This is my first appearance as the 
acting Administrator, and I want to start by thanking the 
subcommittee and the members on both sides of the aisle with 
their strong support for our important national security 
responsibilities. I have provided a detailed written statement 
which I would like to summarize quite briefly before turning to 
my colleagues.
    NNSA has several complementary missions. We are supposed 
to, above all, provide a safe, secure, and reliable nuclear 
deterrent. In doing so, we are supposed to implement the 
President's decisions on the Nuclear Posture Review. We are 
supposed to reduce the threat of the proliferation of weapons 
of mass destruction. We are supposed to maintain a robust 
security posture. We are supposed to reinvest in the nuclear 
weapons infrastructure, support the nuclear propulsion needs of 
the Navy. And we are supposed to do this in an efficient way by 
supporting the President's management agenda.
    As you noted, the budget represents an 11-percent growth 
over last year and is consistent with the Future-Years Nuclear 
Security Program that we have submitted. I share your 
assessment that that has been an extremely valuable tool, and I 
look forward to it being even more valuable in the years ahead 
in enforcing sound planning and good fiscal discipline.
    My colleagues will be talking about the details, but I 
would like to give a very brief overview and then talk about 
some broad areas.
    The funds we are requesting for weapons activities will 
enable us to implement the Nuclear Posture Review. They will 
allow us to restore and maintain operational capabilities and 
keep a robust science and technology infrastructure. We are on 
schedule to produce, later this spring, the first certifiable 
plutonium pit in this country since the closure of Rocky Flats 
in 1989. And Los Alamos is on track to manufacture a 
certifiable pit for the stockpile by 2007.
    As Senator Reid mentioned, we are taking steps to reduce 
our nuclear test readiness to 18 months. That is an important 
initiative of the President's Nuclear Posture Review to which 
we are fully committed. Both the fiscal year 2003 and 2004 
budgets support this transition, which will take us about 3 
years.
    This budget also includes $21 million for advanced concepts 
work. That is small in terms of the overall budget, but it is 
important in policy terms. It includes $15 million for the 
Robust Nuclear Earth Penetrator. That system development work 
will begin later this month following the submission of a 
report to the Congress which the Defense Department submitted 
in mid-March. In addition, there is $6 million for advanced 
concepts work which we intend to use in conjunction with the 
Department of Defense to revitalize the intellectual capital 
and to think about what options might be necessary, and I need 
to emphasize ``might be necessary,'' in the future.
    The Nuclear Posture Review the President approved last year 
gives a responsive infrastructure equal priority with offensive 
strike and defense. We implement that in two particular ways: 
the Readiness in Technical Base and Facilities, which is an 
account that will be with us forever and is intended to operate 
and maintain the facilities needed for stockpile stewardship; 
and the Facilities and Infrastructure Recapitalization Program, 
which is, basically, a get-well program that should be 
completed in about a decade.
    These programs work together to restore, revitalize, and 
rebuild the weapons complex. They are fixing the backlog in 
deferred maintenance, and I believe they are absolutely crucial 
and hope the committee will continue to support them.
    As the chairman mentioned, we are requesting a 30-percent 
increase in Defense Nuclear Nonproliferation funds. Much of our 
program is the same as last year. The largest dollar increase 
is for the MOX Fuel Fabrication Facility. Russia has agreed to 
use the same design, and, therefore, both of us should be able 
to begin construction in 2004. The other increases in 
nonproliferation support the beginning of a program to purchase 
additional highly-enriched uranium from the Russian Federation, 
thus taking it permanently out of risk for proliferation, to 
strengthen safeguards, and then for one or two other minor 
initiatives.
    Last year, NNSA assumed responsibility for a production 
that will shut down the last three plutonium production 
reactors in the Russian Federation. We are about to compete for 
the contractor to actually carry that out. The contractor will 
be selected from a group of contractors with extensive 
experience both in fossil fuel plant construction, which we are 
going to build to replace these reactors, and in working in 
Russia.
    Admiral Bowman will talk about the Naval Reactors program.
    Senator Domenici. Mr. Ambassador, would you just hold for a 
second?
    Ambassador Brooks. Certainly, sir.
    Senator Domenici. I have to see my constituents here just 
for a second. If I do not see them, nobody else will.
    Okay. Thank you, Mr. Ambassador. Please proceed.
    Ambassador Brooks. In fiscal year 2004, Naval Reactors will 
support 103 reactors and 82 nuclear-powered warships, including 
the first-of-a-class reactor when U.S.S. Virginia goes to sea.
    Naval Reactors will continue to design and develop the 
reactor for the new transformational carrier. And the budget 
increase will allow beginning the development of the so-called 
transformational technology core, which will achieve a 
substantial increase in core energy and result in greater 
operational ability and flexibility. In addition, the Naval 
Reactor budget increase will allow maintenance and replacement 
of some of the program's 50-plus-year-old infrastructure.
    Key to ensuring the health and safety of all our activities 
is safeguards and security. The program focuses on protection 
of people, nuclear weapons, information, special nuclear 
material, and infrastructure.
    Immediately following September 11, 2001, my predecessor 
initiated an increase in our security posture. And as a result 
of that, I am satisfied with the level of security complex-
wide. Now, most of that increase was in physical protection, 
and what that mostly means is more guards. As we look to the 
future, physical protection is going to be more complicated and 
costly. So in 2004 we will begin a modest research and 
development effort to try and understand how technology might 
improve security while reducing the demands on physical 
security force, staffing, and overtime.
    Finally, the budget requests $348 million for the Federal 
workforce. This will provide our direction and oversight of 
operations. Naval Reactors and our secure transportation assets 
activities are separately budgeted.
    Our budget reflects declining staffing increases, but it 
also includes about $16 million for re-engineering and 
relocation costs necessary to bring about the new 
organizational model, which I will mention in a moment.
    Before turning to my colleagues, I would like to mention 
some of the management challenges that we have been facing and 
some of the successes we have had. The most obvious challenge 
you have already referred to, Mr. Chairman, and that has been 
the management issues at Los Alamos National Laboratory.
    It is important to put those challenges in context. There 
has been no suggestion of any diminution in the high quality of 
the science. There has been no suggestion of any problems with 
security. There has been no suggestion of any problems with 
safety. But there have been significant weaknesses in business 
practices. As soon as we learned of them, Secretary Abraham and 
I insisted the University of California, which manages the 
laboratory, take corrective action. And generally, I am 
satisfied--that is not true. I am pleased with the corrective 
action taken to date. The University has been vigorous, and I 
share your assessment that the interim laboratory director is 
doing a superb job.
    In addition to what we have done in Los Alamos, we have 
compiled a comprehensive set of lessons learned to share that 
with all of our sites to avoid similar problems in other areas.
    On a more optimistic note, I believe we are making good 
progress in meeting the intent of the Congress in creating the 
National Nuclear Security Administration. On December 20 of 
last year, I implemented the revised management approach we 
reported to the Congress last year. We eliminated a layer of 
management. We shifted the locus of Federal oversight to eight 
site offices. We consolidated all business and administrative 
support into a single service center to be physically 
consolidated next year.
    These changes, along with other workload reduction 
initiatives, should allow us to reduce the Federal workforce by 
about 20 percent by the end of next year in all areas except 
secure transportation asset, nonproliferation, naval reactors, 
and emergency operations.
    I mentioned in the beginning of my remarks that we are 
mindful of the President's management agenda. With an emphasis 
on our new planning, programming, budgeting, and evaluation 
process, we are trying to take a long view, budget with firm 
resource envelopes, and then manage to those budgets. Our 
process was modeled after the Department of Defense, but 
tailored to our needs. It will take several budget cycles 
before we get all the benefit this system will use, and I am 
very pleased with our progress.
    I am also pleased with our participation in the 
administration's Performance Assessment Rating Tool (PART). 
This year the Office of Management and Budget evaluated four 
programs that encompass about 20 percent of our total funding. 
Two of those programs, the advanced computing initiative and 
the nuclear material protection and cooperation, were rated in 
the top 5 percent of all programs government-wide, and they 
were the two highest rated programs in the Department of 
Energy. We will be incorporating PART assessment for all of our 
programs as part of our own internal evaluation cycle, starting 
with the fiscal year 2005 budget we will begin working on this 
summer.
    In conclusion, Mr. Chairman, I am confident we are headed 
in the right direction. Our budget request will support 
continuing our progress in protecting and certifying our 
deterrent, reducing the global danger from proliferation, and 
enhancing the force projection capabilities of the U.S. nuclear 
Navy. It will enable us to continue to maintain the safety and 
security of the NNSA complex, and, above all, I believe it will 
meet the national security needs of the United States for the 
coming century.

                           PREPARED STATEMENT

    Mr. Chairman, this concludes my statement. My colleagues 
and I will be ready to answer your questions after they have 
had the opportunity to present their own statements.
    Senator Domenici. Thank you very much, Mr. Ambassador.
    [The statement follows:]
                 Prepared Statement of Linton F. Brooks
    Thank you for the opportunity to appear today to discuss the Fiscal 
Year 2004 President's Budget Request for the National Nuclear Security 
Administration. This is my first appearance before this Subcommittee as 
the Acting Administrator of NNSA, and I want to thank all of the 
Members for their strong support of our important national security 
responsibilities. I would like to begin my testimony here today by 
providing an overview of the NNSA mission requirements followed by the 
highlights of our budget request.
                                overview
    The NNSA, comprised of Defense Programs, the Defense Nuclear 
Nonproliferation Program, and the Naval Reactors Program, has several 
complementary mission requirements:
  --Provide a safe, secure and reliable nuclear deterrent and implement 
        the President's decisions on the Nuclear Posture Review (NPR) 
        recommendations.
  --Reduce the threat posed by the proliferation of weapons of mass 
        destruction and continue to support the Global War on Terrorism 
        through aggressive nuclear nonproliferation programs.
  --Maintain a robust security posture at NNSA facilities.
  --Revitalize the nuclear weapons complex infrastructure.
  --Support the nuclear propulsion needs of the U.S. Navy.
  --Support the President's Management Agenda for more effective 
        government.
    The fiscal year 2004 budget request totals $8.8 billion, an 
increase of $878 million, about 11 percent, over the enacted fiscal 
year 2003 budget. The request is consistent with the planned program 
levels in the Future-Years Nuclear Security Program recently submitted 
to the Congress. This substantial increase reflects the 
Administration's commitment to sustain a stable and effective long term 
national security program through the NNSA, as well as our obligation 
to our citizens to conduct this program safely, securely, and in an 
environmentally acceptable manner.
    We are building on recent accomplishments. Although there is a 
large increase in this year's budget request, there is no single new 
initiative driving this growth. Rather, we are continuing plans and 
programs already set in motion, and adjusting to the guidance in the 
Nuclear Posture Review. We are moving beyond the talking and planning 
phase of many programs conceived in the 1990's.
    This budget supports the Stockpile Stewardship Program, which 
continues to successfully certify to the President the safety and 
reliability of the nuclear weapons stockpile without underground 
nuclear testing. It includes funds to begin a modest Advanced Concepts 
initiative to provide nuclear deterrence options, begin the transition 
to a 18-month test readiness posture, continue to revitalize the 
facilities and infrastructure that are the bedrock of the weapons 
complex, and push the outer limits of scientific, modeling, and 
computing ability to apply new experimental capabilities to the 
processes of maintaining and certifying the stockpile. It supports our 
efforts to manufacture certifiable pits and to produce tritium.
    In the area of reducing global nuclear danger, this budget request 
for the Defense Nuclear Nonproliferation Program reflects the 
President's and Secretary Abraham's emphasis on reducing proliferation 
threats, including the Global Partnership formed at the Kananaskis 
Summit in June 2002. The fiscal year 2004 request contains funds to 
support attacking the problem globally, to improve the physical 
security of nuclear material, to consolidate and reduce that material, 
and to end its production. It also continues efforts to prevent illicit 
trafficking of nuclear materials, to improve our ability to detect 
proliferation, and to stem the ``Brain Drain'' of weapons experienced 
scientists from Russia.
    Under this budget, the Naval Reactors Program will initiate the 
design and development of a new reactor that will utilize advanced 
materials to achieve a substantial increase in core energy. The result 
will be greater ship operational ability and flexibility to meet 
increasing national security demands.
                         budget summary tables
    The fiscal year 2003 estimates in the fiscal year 2004 budget 
documents transmitted to the Congress reflect the President's fiscal 
year 2003 Budget Request because final fiscal year 2003 appropriations 
were not enacted until February 20, 2003. The Future-Years National 
Security Program tables tie to the President's Budget Request. The 
table below summarizes the enacted funding levels by appropriation. The 
fiscal year 2003 appropriations estimates are made comparable to the 
fiscal year 2004 President's Budget Request by eliminating fiscal year 
2003 appropriations being transferred to the Department of Homeland 
Security and to the Department of Energy's Office of Security (for 
COOP/COG activities). The fiscal year 2003 totals detailed in the table 
below also reflect applications of the general reductions and the 
government-wide, across the board reduction of 0.65 percent enacted in 
the final fiscal year 2003 appropriations.
    The outyear budget estimates and associated programmatic 
information for NNSA programs are contained in the Future-Years Nuclear 
Security Program document I forwarded to the Congress in February.

                                FISCAL YEAR 2004 NNSA PRESIDENT'S BUDGET REQUEST
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                        Fiscal Year     Fiscal      Fiscal
                                            2002       Year 2003   Year 2003    Fiscal                  Percent
                                         Comparable      Comp        Comp      Year 2004   $ Change     Change
                                       Appropriation    Request     Approps     Request
----------------------------------------------------------------------------------------------------------------
Weapons Activities...................        $5,542       $5,846      $5,895      $6,378        $483         8.2
Defense Nuclear Nonproliferation.....     \1\ 1,048        1,028  \2\ \3\ 1,       1,340         318        31.1
                                                                         022
Naval Reactors.......................           688          707         702         768          66         9.4
Office of the Administrator..........           307          329  \3\ \4\ 32         348          27         8.4
                                                                           1
                                      --------------------------------------------------------------------------
      Total..........................         7,585        7,909       7,940       8,835         895        11.3
----------------------------------------------------------------------------------------------------------------
\1\ Does not include $10 million appropriated as part of the fiscal year 2002 supplemental (Public Law 107-206)
  for Domestic Sealed Sources Recovery in the Environmental Management Program.
\2\ Does not include funding appropriated for programs transferred to the Department of Homeland Security.
\3\ Does not include $9.125 million requested to be transferred in fiscal year 2002 from Defense Nuclear
  Nonproliferation to the Office of the Administrator. This transfer was approved early in fiscal year 2003.
\4\ Does not include funding appropriated for activities transferred to Homeland Security, or to Office of
  Security for COOP/COG.


                       NNSA OUTYEAR BUDGET REQUESTS--FUTURE-YEARS NUCLEAR SECURITY PROGRAM
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                            Fiscal      Fiscal      Fiscal      Fiscal      Fiscal      Fiscal
                                           Year 2004   Year 2005   Year 2006   Year 2007   Year 2008   Year 2009
----------------------------------------------------------------------------------------------------------------
Weapons Activities......................      $6,378      $6,661      $6,961      $7,277      $7,518      $7,651
Defense Nuclear Nonproliferation........       1,340       1,356       1,371       1,389       1,322       1,346
Naval Reactors..........................         768         808         795         811         819         834
Office of the Administrator.............         348         337         344         353         355         362
                                         -----------------------------------------------------------------------
      Total.............................       8,835       9,162       9,471       9,830      10,014      10,193
----------------------------------------------------------------------------------------------------------------

             nuclear forces and the nuclear posture review
    Before going into Weapons Activities Stockpile Stewardship Program, 
I will discuss the NNSA's response to the broader policy framework set 
out in the Nuclear Posture Review (NPR) and its implementation.
    As the NPR has articulated, the 21st century presents the prospect 
of a national security environment in which threats may evolve more 
quickly, be more variable in nature, and be less predictable than in 
the past. In this broad threat environment, nuclear weapons will play a 
reduced role in the overall United States security posture--a point 
reinforced in the NPR. At the same time, the NPR reaffirmed that, for 
the foreseeable future, nuclear forces linked with an advanced 
conventional strike and integrated with the capabilities offered by the 
other two legs of the New Triad will continue to be an essential 
element of national security by strengthening our overall abilities to 
reassure allies of U.S. commitments, dissuade arms competition from 
potential adversaries, and deter threats to the United States, its 
overseas forces, allies, and friends.
    The NPR offered a basic reassessment of the role of nuclear forces 
and their contribution toward meeting these defense policy goals. It 
established the need for a capabilities-based force, a dramatic 
departure from the threat-based rationale for the nuclear force of the 
past. This change, in combination with the judgment to no longer plan 
our forces as if Russia presented an immediate threat to the United 
States, was the basis for dramatic reductions codified in the Moscow 
Treaty in the level of operationally-deployed strategic nuclear forces. 
Over the next decade, the number of deployed warheads will be cut by 
approximately two-thirds from today's level.
    To meet the challenges of an uncertain and unpredictable threat 
environment, and in seeking to mitigate any dangers associated with 
dramatically reduced nuclear forces, the nuclear weapons enterprise 
must be able to respond rapidly and decisively. This is the idea behind 
the third leg of the New Triad. That is, by providing means to respond 
to new, unexpected, or emerging threats in a timely manner, the R&D and 
industrial infrastructure needed to develop, build, and maintain 
nuclear offensive forces and defensive systems (of which the nuclear 
enterprise is a key component) is itself a principal tool for achieving 
our overall defense strategy. This concept, and its endorsement by the 
NPR, has had enormous implications for NNSA in helping to gain strong 
support for its programs from DOD and others.
    We are pressing ahead with efforts to reverse the deterioration of 
the nuclear weapons infrastructure, restore lost production 
capabilities and modernize others in order to meet the stockpile 
refurbishment plan. We are actively assessing the NPR's implications in 
a number of other related areas. Finally, we are pursuing initiatives 
endorsed by the NPR which are intended to provide the nuclear weapons 
enterprise with the flexibility to provide a timely response to 
``surprise,'' or to changes in the threat environment.
               weapons activities--stockpile stewardship
    The President's fiscal year 2004 request for Stockpile Stewardship 
continues to build and expand on the scientific and engineering 
successes that are the hallmarks of this program. This request totals 
$6.378 billion, an increase of 8.2 percent. It will also allow us to 
meet our requirements under the terms of the Nuclear Posture Review 
including enhancing test readiness, reinvigorating the advanced 
concepts work in the weapons laboratories, and restoring the weapons 
complex to meet the national security requirements of the 21st Century. 
There are a number of significant milestones we expect to achieve this 
year.
  --Manufacture the first certifiable W88 pit.
  --Begin irradiation of the first Tritium Producing Burnable Absorber 
        Rods in the TVA's Watts Bar Reactor.
  --Continue delivery of W87 Life Extended warheads to the Air Force.
  --Complete environmental documentation in support of the Modern Pit 
        Facility.
  --Deliver four ultraviolet beams of NIF laser light to the target 
        chamber.
  --Initiate Stockpile Stewardship experiments in NIF.
  --Perform two- and three-dimensional simulations of aging stockpile 
        weapons focused on Life Extension Program activities.
  --Ship nuclear weapons, weapons components, and nuclear materials 
        safely through the Secure Transportation Asset.
  --Conduct subcritical experiments at the Nevada Test Site to better 
        understand plutonium aging.
  --Begin work on the Advanced Concepts initiative and, in particular, 
        on the RNEP Phase 6.2 studies with the Air Force.
    These major milestones will be accomplished by the weapons complex 
in addition to the manufacture of thousands of components needed to 
maintain the stockpile. The complex will also carry out hundreds of 
smaller scale experiments, perform surveillance activities, address 
Significant Finding Investigations to ensure weapons safety and 
operability, conduct flight tests with the support of the DOD, deploy 
new manufacturing tools and processes at the production plants, and 
safely dismantle weapons excess to national security requirements.
    These and other activities are dependent on retaining today's 
highly skilled workforce and recruiting the next generation of 
stockpile stewards. Over the last several years, NNSA has made a 
significant headway on this all-important front. Critical skill 
vacancies across the complex have been reduced to 8 percent. 
Inextricably linked to recruitment and retention is providing the 
quality workspace and fully functioning tools and technologies needed 
by our scientists and engineers to carry out their work. We are working 
diligently to reinvest in the weapons complex infrastructure.
    I would now like to highlight several activities under the 
Stockpile Stewardship Program that I believe are of particular interest 
to this committee.
    Pit Manufacturing and Certification Campaign.--Restoring the 
Nation's ability to manufacture plutonium pits in support of the 
stockpile has been a central challenge for the stewardship program 
since the closure of the Rocky Flats plant in 1989. The United States 
has never before manufactured and certified pits without nuclear 
testing. I am very pleased to report that late this spring, Los Alamos 
will manufacture the first certifiable W88 pit. LANL also remains on-
track to manufacture a war reserve W88 pit by 2007. To achieve this 
critical milestone, LANL has produced a number of development pits and 
has performed a series of engineering tests and physics experiments to 
confirm pit performance.
    While the TA-55 facilities at LANL are adequate to support the W88 
pit campaign, they do not appear to be capable of supporting the 
manufacturing need for long-term stockpile support. NNSA has begun 
planning for a Modern Pit Facility (MPF) consistent with the Record of 
Decision for Stockpile Stewardship and Management and the NPR. In May 
2002, the Secretary of Energy formally approved Critical Decision ``0'' 
(CD-0) for the MPF. The NNSA is now examining five candidate sites--
Pantex, Carlsbad, the Nevada Test Site, Savannah River and Los Alamos--
as possible locations for the MPF. We expect to issue a Draft 
Environmental Impact Statement (EIS) later this spring. Following a 
series of public meetings, a final EIS and associated Record of 
Decision (ROD) will be issued. The program will prepare site specific 
environmental documentation if the ROD supports a decision to construct 
and operate an MPF. The fiscal year 2004 request will allow conceptual 
design and other planning activities, NEPA work, and technology 
development activities to proceed on a schedule that will support a CD-
1 decision in fiscal year 2006.
    Test Readiness.--While I continue to have confidence in the ability 
of the Stockpile Stewardship Program to continue to ensure the safety, 
security, and reliability of this Nation's nuclear deterrent, we must 
maintain our ability to carry out nuclear weapons tests. Our current 
readiness posture to conduct such a test is 24 to 36 months, as 
established in a 1993 Presidential Decision Directive. Last year's NPR 
stated that this period should be reduced in order to provide options 
to deal with defense policy goals, including resolving unanticipated 
problems in the stockpile. A study completed in July 2002 confirmed 
that additional work was required to maintain the present posture, but 
it also led us to conclude that the right posture is to be ready for a 
test within approximately 18 months. With fiscal year 2003 funding now 
in place, we intend to begin the transition to a 18 month posture. The 
Nuclear Weapons Council has concurred that our intended action is 
appropriate. The transition to this new readiness posture is expected 
to take approximately three years.
    Although there have been discussions about a transition to shorter 
times, there is concern that an unnecessarily expedited time-frame may 
cause adverse effects on critical personnel resources and require 
significantly more funding. It is not likely that we will be able to 
match the short lead times when the weapons complex conducted multiple 
underground tests annually, nor do I think it is prudent to tie-up 
important resources to indefinitely maintain an extremely short test 
readiness posture. Since device and diagnostics preparations are driven 
by the particular weapon to be tested and the questions to be answered 
by the test, such a posture might not be responsive to a surprise in 
the stockpile. The NNSA is studying this matter and I will soon be 
reporting to the Congress on these subjects as directed in the fiscal 
year 2003 Defense Authorization Bill.
    Advanced Concepts/Robust Nuclear Earth Penetrator.--The NPR also 
highlighted the importance of pursuing Advanced Concepts work to ensure 
that the weapons complex can provide nuclear deterrence options well 
into the next century. To that end, the fiscal year 2004 budget 
includes $21 million for Advanced Concepts work. About $15 million will 
be allocated to the Robust Nuclear Earth Penetrator (RNEP), with the 
balance of the funding divided between the weapons laboratories for 
concept and feasibility studies of possible nuclear weapon 
modifications, or new designs to meet possible new requirements.
    The Department of Defense submitted the report on RNEP to the 
Congress on March 19, 2003, as required by the fiscal year 2003 Bob 
Stump National Defense Authorization Act. The NNSA will begin an in-
depth study once the 30 day waiting period has elapsed. As members 
know, this study will examine whether or not two existing warheads in 
the stockpile the B61 and the B83 can be sufficiently hardened through 
case modifications and other work to allow the weapons to survive 
penetration into various geologies before detonating. This would 
enhance the Nation's ability to hold hard and deeply buried targets at 
risk. The RNEP feasibility and cost study is currently scheduled for 
completion in 2006; however, we are looking at opportunities to reduce 
study time.
    For other advanced concepts, we will work with the DOD to assess 
evolving military requirements. We will carry out theoretical and 
engineering design work. I should stress that we have no requirement to 
actually develop any new weapons at this time.
    Physical Infrastructure.--Since its inception, the NNSA has been 
committed to a disciplined corporate facilities management approach to 
improve the facility conditions of the nuclear weapons complex. We made 
this corporate commitment clearly recognizing the drivers and practices 
of the past decade had ultimately resulted in a complex with 
significant deterioration in our physical infrastructure and an 
excessive backlog of deferred maintenance. The NNSA complex is part of 
our Nation's strategic nuclear infrastructure and the third leg of the 
New Triad as defined in the Nuclear Posture Review. The Nuclear Posture 
Review gave a responsive infrastructure equal priority with offensive 
and defensive weapons. Through our focused and disciplined efforts, we 
now have underway an effective and integrated program to restore, 
revitalize, and rebuild our nuclear weapons program infrastructure.
    Two complementary accounts in the budget, Readiness in Technical 
Base and Facilities (RTBF) and the Facilities and Infrastructure 
Recapitalization Program (FIRP), are essential to the operation, 
maintenance, and renewal of a physical infrastructure. Funding for 
RTBF, Operations of Facilities, increases by 4 percent in the fiscal 
year 2004 request. The RTBF provides the funding needed to operate and 
maintain the facilities required for certification, thus ensuring the 
vitality of the NNSA national security complex and its goal of a 
consistent readiness level. FIRP is a capital renewal and 
sustainability program designed to eliminate maintenance backlogs. The 
FIRP addresses an integrated, prioritized list of maintenance and 
infrastructure projects, separate from the maintenance and 
infrastructure efforts of RTBF, which will significantly increase the 
operational efficiency and effectiveness of the NNSA sites.
    Importantly, beyond the application of the new and much needed 
funding, FIRP also brings a series of new facility management processes 
and best business practices which are improving our corporate facility 
management. One of the most important practices is the NNSA commitment 
to deferred maintenance reduction: stabilizing our backlog by fiscal 
year 2005 and returning it, for our mission essential facilities and 
infrastructure, to industry standards by fiscal year 2009. To meet this 
goal, the fiscal year 2004 budget request targets 45 percent of the 
FIRP Recapitalization subprogram to facilities and infrastructure 
specific deferred maintenance projects.
    Integral to our corporate approach to RTBF and FIRP are the 
linkages and discipline provided by the PPBE process, and specifically 
the Ten-Year Comprehensive Site Plans (TYCSP) and associated facilities 
and infrastructure planning processes. We are now in the third year 
that the NNSA has approved the TYCSPs, incorporating technical 
requirements and performance measures within the financial bounds of 
the FYNSP resource levels. From the field perspective, these plans 
provide Federal and M&O managers at each site with the tools and 
processes to propose, prioritize and obtain approval of the work needed 
to effectively manage their facilities and infrastructure. From the 
Headquarters perspective, the TYCSP provides the NNSA with a 
standardization that allows comparisons and planning to be effected 
complex-wide.
    In recent years, the combined and measurable efforts of FIRP and 
RTBF have worked to assure that we restore, revitalize, and rebuild the 
weapons complex infrastructure for today and tomorrow's missions. 
Across the weapons complex both programs are fixing the backlog of 
maintenance, keeping up with operational needs, and planning for the 
future to make a clear and visible difference. These combined efforts 
are crucial and I urge the committee to support them.
    Stockpile Life Extension.--While preparing for the future, the labs 
and plants are working very hard to extend the life of several elements 
of the existing nuclear weapons stockpile through the Life Extension 
Program (LEP). The NPR reaffirmed the decision as reached by the 
Nuclear Weapons Council on the timing, pace, scope, and technical 
aspects of the LEPs for the W76, W80, B61-7/11, and ongoing W87 work. 
Through this program new subsystems and components are designed, built, 
tested and installed, thereby extending the operational service life 
for these warheads for some 30 additional years.
    For the last several years, we have been extending the life of the 
W87 warhead for the Air Force. This work is ongoing at Y-12 National 
Security Complex, Lawrence Livermore and Sandia National Laboratories, 
and the Pantex Plant. We are more than half way through this effort and 
expect to wrap up the work by early 2004.
    Life extension for the W76 involves a comprehensive overhaul of the 
warhead, including replacement or refurbishment of the Arming, Firing 
and Fuzing set, high explosives, gas transfer system and other 
components. We will also be requalifying the weapon primary. For the 
W80, we will be replacing the Trajectory Sensing Signal and Neutron 
Generators, the tritium bottles and incorporating surety upgrades. For 
the B61, we will be refurbishing the secondary. The First Production 
Units for these systems are scheduled for delivery to the Navy and Air 
Force in: fiscal year 2007, fiscal year 2006 and fiscal year 2006, 
respectively.
    Tritium.--In addition to restoring plutonium manufacturing 
capabilities, NNSA will begin tritium production later this year when 
several hundred Tritium Producing Burnable Absorber Rods (TPBARs) are 
inserted into TVA's Watts Bar Reactor. However, because of significant 
changes in stockpile size in the outyears as a result of the NPR and 
the Moscow Treaty, the NNSA has, in concert with the DOD, adjusted the 
tritium production requirements to reflect these changes. We remain 
fully committed to exercise all elements of the system for producing, 
extracting, and purifying new tritium, including initial operation of 
the Tritium Extraction Facility (TEF) being constructed at the Savannah 
River Site.
    Timing of tritium production, extraction, and purification has also 
been delayed by approximately 17 months for two reasons: (1) a 
reduction in the stockpile requirements by the NPR and (2) a delay in 
completion of the TEF project. This program delay can be accomplished 
without impacting nuclear weapons readiness. A revised baseline has 
been approved increasing the Total Project Cost from $401 million to 
$506 million and delaying project completion from mid-fiscal year 2006 
to late-fiscal year 2007.
    Since the tritium decays by natural radioactivity at a rate of 
about 5 percent per year, and since irradiation service costs are the 
dominant operating costs in supplying tritium to the stockpile, it is 
prudent not to produce tritium beyond the stated national requirements. 
Since the program intends to complete and exercise all elements of the 
tritium production and purification system (including TVA's reactor(s) 
and the TEF) on a schedule that fully protects the stockpile 
requirements, irradiation services are being deferred in order to use 
funds planned for these activities to complete TEF.
    National Ignition Facility.--I am pleased to report that tremendous 
technical progress has been achieved over the last year at the National 
Ignition Facility (NIF). Its mission is to obtain fusion ignition in a 
laboratory setting by imploding a BB-sized capsule containing a mixture 
of the hydrogen isotopes, deuterium and tritium. The NIF will provide 
the capability to conduct laboratory experiments to address the high-
energy density and fusion aspects that are important to both primaries 
and secondaries in the nuclear stockpile.
    In December 2002, the first four NIF laser beams were activated to 
generate a total of 43 kilojoules of infrared laser light in a single 
pulse. In March 2003, NIF delivered its first 4 beam of ultraviolet 
laser light focused onto a target at the center of the 30 foot-diameter 
target chamber. With this accomplishment, all elements of each of the 
NIF critical subsystems have been successfully activated and operated. 
Stewardship experiments will begin in fiscal year 2004.
    Advanced Simulation and Computing.--The Advanced Simulation and 
Computing (ASCI) Campaign is creating simulation capabilities that 
incorporate modern physics and engineering models to improve our 
ability to predict with confidence the behavior of the nuclear weapons 
in the stockpile. These models, validated against experimental data 
from past above ground and underground nuclear tests, are the 
repositories of expert designer judgment as well as the best scientific 
representations of our current knowledge of the performance of the 
nuclear weapons. The ASCI Campaign is driving the integration of the 
theoretical and experimental efforts within the Stockpile Stewardship 
Program.
    At the same time that ASCI continues the development of the most 
powerful computer capabilities needed for the future, the modern 
simulation tools previously developed by ASCI--the Blue Pacific and 
White Machines at LLNL, the Red Machine at SNL, and the Blue Mountain 
and Q machines at LANL--are being applied day-to-day to address 
immediate stockpile concerns. The ASCI codes are being used to close 
Significant Finding Investigations as well as to support Life Extension 
Programs for the W76, W80, W87, and B61. These activities are enabled 
by the ongoing supercomputing infrastructures at the national 
laboratories, encompassing both continuing operations as well as 
research in new techniques for storage, visualization, networking, and 
all aspects of the infrastructure required by modern computing.
    By fiscal year 2008, ASCI will deliver a high fidelity, full-system 
physics characterization of a nuclear weapon. At that time, the 
campaign will deliver a suite of validated codes, running on 
supercomputer platforms, acquired though open procurement, with user-
friendly environments, advanced visualization tools for analysis, and 
the entire support structure to integrate the components together. 
Other program deliverables include high-performance storage and high-
bandwidth networks. In support of a true integrated SSP effort, the 
ASCI Campaign continues to push the envelope in distance computing as 
well as in advanced encryption techniques and other approaches to 
ensure secure, classified networking.
                         secure transportation
    The Office of Secure Transportation is responsible for safely and 
securely moving nuclear weapons, special nuclear materials, select non-
nuclear components, and Limited Life Components for the DOE and the 
DOD. This work is carried out by 225 Federal agents stationed at three 
sites--Pantex, Oak Ridge, and Albuquerque. These highly dedicated and 
skilled agents are authorized to use deadly force in the performance of 
their duties. Employing highly modified tractor trailers and escort 
vehicles, and secure and redundant communications they have amassed an 
impressive safety record of more than 100 million accident free miles 
without cargo compromise. I would note that this office also provides 
support to other elements of the DOE, including the Offices of 
Environmental Management and Nuclear Energy.
          nonproliferation--reducing the global nuclear danger
    The NNSA's nonproliferation activities are central to the Bush 
Administration's National Strategy to Combat Weapons of Mass 
Destruction of December 2002, which lists ``Strengthened 
Nonproliferation'' as a pillar of its approach to reducing 
proliferation threats. Secretary Abraham and the NNSA are committed to 
this critical mission. This commitment is reflected in the diversity of 
our programs to address nonproliferation concerns in Russia, other 
former Soviet states, and, increasingly, throughout the world. The NNSA 
uniquely integrates technical and policy expertise to guide and 
implement the full range of U.S. nonproliferation priorities. The 
fiscal year 2004 request for this program is $1.34 billion, an increase 
of about 31 percent.
    The NNSA addresses concerns that arise from the two requisites of 
nuclear weapons proliferation: materials and expertise. Whether 
ensuring that former Russian weapons experts are able to put their 
skills to use on peaceful and commercial initiatives, reducing the 
footprint of Russia's ``closed'' nuclear cities, or leading on-the-
ground programs to secure at-risk nuclear materials in Russia or 
elsewhere, NNSA is at the forefront of U.S. efforts to halt the 
proliferation of weapons of mass destruction and advance U.S. nuclear 
security interests.
    The Global Partnership Against the Spread of Weapons and Materials 
of Mass Destruction, formed at the Kananaskis Summit in June 2002, has 
recommitted the G-8 nations to increase greatly assistance to 
nonproliferation, disarmament, counter-terrorism, and nuclear safety. 
The partnership pledges to provide $20 billion over the next ten years 
for nonproliferation and threat reduction initially focused in Russia. 
The United States is committed to provide half that total. The effort 
of our G-8 partners will complement U.S. programs and meets past 
Congressional concerns that we not carry a disproportionate burden.
    I am also pleased to inform you of the substantial progress of the 
Elimination of Weapons-Grade Plutonium Production Program (EWGPP). The 
EWGPP is using best project management practices by applying the 
Department's established directives on project management. On December 
20, 2002, the projects received Critical Decision Zero (CD-0), mission-
need justification, and we have started the process to procure U.S. 
contractors.
    These contractors will be responsible for oversight, verification, 
and payment to the Russian Federation Integrating Contractor for work 
completed. The U.S. contracts will be performance-based with the award 
fee provisions focusing on successful completion and the ability of the 
U.S. contractor to incentivize the Russian Federation Integrating 
Contractor's performance in meeting or exceeding cost, schedule and 
quality objectives. The U.S. contractor is being selected from a group 
of contractors that have extensive experience in both fossil fueled 
power plants and in Russia. Although the projects will be executed in 
the Russian Federation, using Russian equipment and personnel, we are 
implementing a rigorous oversight plan to monitor the progress through 
a formal project management system.
    With three exceptions, our fiscal year 2004 request is essentially 
the same as last year. Last year, at the President's request, Secretary 
Abraham sought Russian agreement to dispose of additional Russian 
highly enriched uranium. We are nearing agreement on the purchase of 
Russian highly enriched uranium for U.S. research reactors and on 
purchasing downblended uranium from Russian weapons for a strategic 
uranium reserve. We have requested $30 million for this program.
    Second, there has been a $19.7 million increase in the request for 
programs to secure radiological sources that could be used in 
radiological dispersal devices, also known as ``dirty bombs.''
    The largest fiscal year 2004 budget increase, about $272 million, 
supports our plutonium disposition efforts. The United States and 
Russia will each dispose of 34 metric tons of weapons grade plutonium 
by irradiating it as mixed oxide, MOX fuel, in existing nuclear 
reactors. This program is on track. Over 75 percent of the detailed 
design of the U.S. MOX facility will be done this year. Russia has told 
us that it will use the U.S. design for the MOX Fuel Fabrication 
Facility, thus ensuring the programs remain on roughly the same 
schedule. Construction of both the U.S. and Russian MOX Fuel 
Fabrication Facilities will begin in fiscal year 2004.
    I would also like to comment on NNSA's efforts to ensure that 
funding is focused on the highest nonproliferation concerns. Given that 
adverse impacts of terrorists or rogue nations obtaining nuclear 
weapons is intangible, we cannot easily assess risks using quantifiable 
risk analysis methods. However, we have and will continue to conduct 
qualitative risk analyses to determine that we are applying the most 
cost-effective approaches to meet the greatest nonproliferation needs.
    The NNSA recognizes that proliferation is a multifaceted problem, 
and reduces the threat in a multitude of ways.
    We're attacking the problem globally.--The Global Partnership is 
only the most recent example of U.S. cooperation with the international 
community on nonproliferation. International cooperation supports our 
national nonproliferation objectives, and we pursue such cooperation in 
new ways. The suite of NNSA programs promotes greater international 
understanding and adherence to export controls, the application of 
safeguards to secure nuclear materials, and measures to maintain 
regional security in the world's most volatile regions.
    NNSA is improving the physical security of nuclear material.--The 
United States does this primarily through its Materials Protection, 
Control and Accounting (MPC&A) program in Russia, as well as the Newly 
Independent States/Baltics. In fiscal year 2004, this will include 
security upgrades on 24 metric tons of Russian nuclear material and 
1200 Russian Navy nuclear warheads. We will also continue our work to 
ensure the adequate physical protection of nuclear material located in 
40 countries around the world.
    We are improving our work to secure radiological sources and 
prevent their use in ``dirty bombs.''--The International Conference on 
Security of Radioactive Sources delivered a concrete set of findings to 
guide international efforts to gain better control of high-risk 
radioactive sources worldwide. Secretary Abraham's announcement of a $3 
million ``Radiological Security Partnership'' will set in motion a new 
initiative to address potential threats from under secured, high-risk 
radioactive sources.
    NNSA is helping to consolidate nuclear material.--By reducing the 
number of locations where this material is stored, the United States is 
greatly reducing its vulnerability to theft or sabotage. By the end of 
2003, we will have removed all weapons-usable material from 23 
buildings into fewer locations, thus improving security.
    Nuclear material can be reduced.--Fissile Materials Disposition 
conducts activities to dispose of surplus highly enriched uranium and 
weapon-grade plutonium. By disposing of 68 metric tons of plutonium in 
the U.S. and Russia, the plutonium disposition program will reduce the 
threat that this material could pose if acquired by hostile nations or 
terrorist groups. The plutonium will be irradiated as mixed-oxide (MOX) 
fuel in nuclear reactors, making the material no longer readily usable 
for nuclear weapons.
    The production of nuclear material for weapons can be ended.--The 
value of reducing nuclear materials increases greatly if no new 
material is being produced at the same time. The EWGPP discussed above 
aims to accomplish just that by replacing Russia's remaining plutonium 
production reactors with fossil fuel energy plants to meet the energy 
needs of local communities.
    The illicit trafficking of nuclear materials can be slowed.--The 
Second Line of Defense Program and International Nuclear Export Control 
programs focus on cooperative efforts to minimize the risk of illicit 
trafficking of special nuclear material, radiological materials, and 
dual-use technologies across international borders such as land 
crossings, airports, and seaports. Under the fiscal year 2004 budget 
request, the program will continue to target strategic border points 
and transshipment countries around the world for deployment of 
radiation detection equipment while maintaining existing equipment in 
more than 20 countries.
    The threat of the ``Brain Drain'' can be alleviated.--To prevent 
adverse mitigation of WMD expertise, the Russian Transition Initiatives 
(RTI) program commercializes technology and downsizes Russia's weapons 
complex. This approach transforms the former weapons infrastructure 
expertise into commercially viable, peaceful business ventures, and 
shrinks the complex by moving fence lines, closing buildings, and 
providing alternative employment opportunities to weapons experts.
    We can continually improve our ability to detect proliferation.--
Research and development in proliferation detection provides the United 
States timely detection of potential threats. These technologies are 
key to identifying threats at borders or other critical thoroughfares, 
detecting clandestine proliferation activities, and verifying treaty 
adherence.
    In sum, the United States, with NNSA leading the way, has developed 
programs to address the threat of the proliferation of weapons of mass 
destruction--in all its dimensions.
                             naval reactors
    Naval Reactors (NR) continues the success it has had for more than 
50 years and is a prime example of how to manage unforgiving and 
complex technology. Our Naval Reactors program, which supports the 
nuclear-powered submarines and carriers on station around the world, 
remains a vital part of the national security mission and the Global 
War on Terrorism. In fiscal year 2004, NR will support 103 reactors in 
82 nuclear-powered warships, including the first-of-a-class reactor 
when the USS VIRGINIA goes to sea. In addition, NR will continue to 
design and develop the reactor for the new transformational carrier 
CVN-21. The NR budget request for fiscal year 2004 is $768 million, 
about a 7 percent increase above inflation over fiscal year 2003. The 
increase will allow NR to begin the development of the Transformational 
Technology Core (TTC) utilizing advanced materials to achieve a 
substantial increase in core energy. TTC will be forward-fitted into 
the VIRGINIA Class submarines, and will result in greater ship 
operational ability and flexibility to meet increasing national 
security demands. This budget increase will also allow maintenance and 
replacement of some of the program's 50-plus-year-old infrastructure as 
well as remediation at sites no longer in use, allowing NR to continue 
its ``clean-as-you-go'' policy.
             safeguards and security throughout the complex
    Security continues to be one of the NNSA's highest priorities. The 
NNSA's Safeguards and Security program focuses on the protection of our 
people, classified and sensitive information, nuclear and non-nuclear 
materials, and the vital infrastructure of our laboratory and 
industrial production complex. Overall, we have a very effective 
safeguards and security program as validated by internal and external 
independent reviews across our sites and operations. We then use the 
results of these reviews to assess and confirm our security postures 
and areas for improvement. Our fiscal year 2004 budget request 
maintains a robust safeguards and security posture throughout the 
weapons complex to protect our facilities, materials, information, and 
people.
    The request also supports evaluation and assessment of options to 
use cost-effective measures to meet future security requirements. The 
NNSA sites conduct Vulnerability Assessments that include a review of 
potential targets and the identification of the variety of methods that 
an adversary could or might attempt to use against the targets. 
Tabletop exercises, computer simulations, and actual force-on-force 
exercises, conducted both internally and through external independent 
offices, are used to evaluate various scenarios and related options for 
protection.
    In our efforts to assure we have a robust, responsive and adaptable 
security architecture, we have recently been conducting detailed, site 
specific reviews, known as Iterative Site Analyses (ISA). The ISAs are 
analytical, tabletop exercises which address a spectrum of potential 
threats, both within and beyond the Design Basis Threat. The ISA is 
conducted by independent and highly skilled security professionals from 
across the government and private sector. These analytical efforts are 
designed to give decision makers at each site and NNSA Headquarters a 
better understanding of how potential changes in threat and protective 
measures can be factored into actions that improve our system 
responsiveness and overall security posture. The results are then used 
in our risk identification and management efforts that assist in 
determining the safeguards and security program structure and most 
cost-effective investments at each site.
    Immediately following the events of September 11, 2001, NNSA 
initiated a series of efforts to increase our security posture. As a 
result, I am very comfortable with the level of our security complex-
wide. Most of the increases in our security posture, however, were the 
result of increases in the level of physical protection, mainly guard 
forces. As NNSA looks to the future, it is clear that the threat and 
protection challenges will continue to become more complicated and 
costly. More effort is needed to identify and deploy technologies and 
work procedures that can maintain or improve our security 
responsiveness while reducing physical security force staffing and 
overtime requirements.
    In fiscal year 2004, the NNSA will initiate a modest research and 
development effort to pursue emerging technologies. In addition to our 
historic rate of physical protection upgrades, the modest research and 
development effort will focus on applied technology to define a more 
robust, flexible and cost-effective security architecture across all 
aspects of our work in the coming decade. These areas include earlier 
detection of adversaries, automated response capabilities, better 
coordinated communications, more efficient efforts to delay 
adversaries, better detection of contraband at site perimeters and 
enhanced cyber-security. This relates to both the current 
infrastructure and operations as well as our up-front planning for new 
construction and operations. Early in 2003, we completed an initial 
review of our technology needs and applications. In fiscal year 2004, 
we will complete the gap analysis of needed security efforts, review 
various technologies for near term application, and target areas that 
have the potential for significant long-term contributions. Throughout 
this effort, we will engage with the ongoing efforts and experiences of 
the Department of Energy's other program areas and National 
Laboratories as well as other Federal agencies such as Departments of 
Defense and Homeland Security, to help assure sharing of best practices 
and maximum leveraging of our resources.
            relationship to department of homeland security
    The standup of the NNSA has been shaped by the Nation's response 
over the past eighteen months to the terrorist attacks on September 11, 
2001. Because the NNSA is the steward of the facilities and assets for 
the Nation's nuclear weapons complex, we placed the highest priority on 
addressing urgent, emergent concerns about the safeguards and security 
posture of our nationwide complex of facilities and transportation 
systems. We also upgraded our emergency response assets, which are 
available to be deployed in emergencies around the world. We have 
accelerated research and development on chemical and biological agents, 
and have shared the expertise resident in our laboratories and other 
facilities with other agencies and municipalities as part of the 
expanded focus on homeland security across the government. NNSA has 
contributed research and development and Federal support programs to 
the new Department of Homeland Security (DHS) and provided expertise 
and administrative support for startup of the new department. These 
programs, totaling about $88 million, include research and development 
to counter the chemical and biological threats; nuclear smuggling 
research and development; nuclear assessments program, from MPC&A; and, 
Federal program direction funding in support of these programs.
    The legislation establishing the new Department specified that the 
Nation's radiological response capabilities will remain under the 
direction of the Secretary of Energy and NNSA Administrator. Funding 
for the radiological assets will remain within NNSA's Nuclear Weapons 
Incident Response programs ($90 million in fiscal year 2004). The 
assets will continue to respond to radiological accidents at 
Departmental facilities and will support Federal law enforcement 
activities where nuclear materials may be involved. NNSA's Office of 
Emergency Operations will work cooperatively with the DHS, and, when 
deployed in formally designated situations, the radiological assets 
will take direction from the Secretary of Homeland Security as the Lead 
Federal Agency. A Memorandum of Agreement establishing a framework for 
DHS to access the capabilities of these assets was finalized between 
the two Departments last month.
                      office of the administrator
    Finally, I will summarize the fiscal year 2004 budget request for 
the NNSA Federal workforce, both Headquarters and field. The Office of 
the Administrator account provides the corporate direction and 
oversight of NNSA operations consistent with the principles of 
protecting the environment and safeguarding the safety and health of 
the public and workforce of the NNSA. This account now represents the 
consolidated program direction funds from the former Weapons Activities 
and Defense Nuclear Nonproliferation accounts; the Naval Reactors and 
Secure Transportation Asset activities retain separately funded program 
direction accounts. Our fiscal year 2004 budget request of $348 million 
reflects declining staffing levels and includes about $16 million for 
re-engineering incentives and relocation costs necessary to bring about 
the new NNSA organizational model.
                           management issues
    I would like to conclude by discussing some of the management 
challenges and successes NNSA has faced. The most obvious challenge has 
been the ongoing problems at the Los Alamos National Laboratory. There 
are three specific areas of concern at Los Alamos: improper use of 
government-issued credit cards; potentially fraudulent use of purchase 
orders; and, poor accountability of government property. These problems 
taken together reveal significant weaknesses in business practices at 
the Laboratory.
    As soon as we learned about the extent of these problems this past 
fall, Secretary Abraham and I insisted that the University of 
California, which manages the laboratory for the Department, take 
corrective action. Subsequently, the University has replaced the Los 
Alamos Director and Deputy Director, and demoted or replaced 15 other 
officials. The University also has subordinated business services and 
auditing at the laboratory directly to the University, brought in 
outside firms to conduct detailed audits, and made numerous changes in 
the internal procedures. Generally, we are satisfied with the 
corrective action taken to date. The Secretary has directed the Deputy 
Secretary and me to conduct a review of the future relationship between 
the University of California and the Department. This review will be 
complete by the end of April. In addition, we are compiling a 
comprehensive set of ``lessons learned'' from the Los Alamos problems 
to share with all DOE sites.
    On a more optimistic note, good progress has been made in 
implementing the intent of the Congress in creating the NNSA. The 
National Nuclear Security Administration is in its third year of 
operation, focusing the management of the Nation's nuclear security 
programs through a single organization. The new organization brought 
together the Department of Energy's Defense Programs, Defense Nuclear 
Nonproliferation, and Naval Reactors organizations in a separately 
organized and managed agency within the DOE. The standup of the 
organization has been a complex undertaking, and I am pleased to report 
that NNSA is now fully operational. As a result of our strategic 
planning exercises last year, and the resulting re-engineering of 
program responsibilities and organizations, we are getting a better 
handle on the many diverse components of the NNSA programs. Through an 
emphasis on our new Planning, Programming, Budgeting and Evaluation 
(PPBE) process, we are planning programs with a long-term view, 
budgeting within a firm five-year resource envelope, and managing 
program and budget execution with more discipline, all leading to 
better results for the citizens of the United States.
    On December 20, 2002, the NNSA began a fundamental restructuring of 
its management structure designed to implement the President's 
Management Agenda to create a more effective NNSA. The NNSA of the 
future will build upon the successes of the past by giving outstanding 
people the tools needed for strong and effective management of our 
vital national security mission. This reorganization eliminated a layer 
of Federal management oversight in the field by disestablishing NNSA's 
three Operations Offices at Albuquerque, Nevada, and Oakland; shifting 
the locus of Federal management oversight to eight Site Offices, closer 
to where the actual work is performed; and, consolidating all business 
and administrative support functions into a Service Center to be 
located in Albuquerque to increase overall efficiency. These changes 
were the culmination of nine months of functional and business process 
re-engineering, as first described in the Administrator's February 2002 
``Report to Congress on the Organization and Operations of the National 
Nuclear Security Administration.'' These management and organizational 
reforms are expected to permit NNSA to achieve significant Federal 
staff reductions of about 20 percent in the nuclear weapons enterprise 
by the end of fiscal year 2004.
    As we continue to implement the NNSA Act, we are particularly 
mindful of the President's Management Agenda to which we are firmly 
committed. We have invested much time and energy over the past year to 
carrying out its five major initiatives. Implementation of a PPBE 
process as NNSA's core business practice is designed to improve budget 
and performance integration throughout the organization. During the 
past twelve months, NNSA has been involved in an intensive effort to 
design and implement a PPBE framework simultaneously with the standup 
of the new NNSA organization. The processes have been designed in-
house, along the lines of the DOD's PPBS system but tailored to our 
needs. We are adapting processes to address NNSA's emerging 
organization and unique business operations, and working within limited 
administrative staffing levels.
    Budgeting structures are being updated and aligned with management 
structures. We are making excellent progress in finalizing the cascade 
of performance metrics linked from the NNSA Strategic Plan to the 
individual budget and reporting (accounting) codes and contractor work 
authorizations. There is a very significant improvement in the 
Performance Measures across all programs for fiscal year 2004. 
Evaluation is becoming formalized through linkage with the budget, and 
improved by the realignment of roles and responsibilities for program 
managers and financial managers across the complex.
    We are pleased with the early progress of PPBE in becoming the core 
operating philosophy for NNSA. The first year was spent on process 
design, integration of the NNSA programs primarily at Headquarters, and 
in consultations and coordination of our efforts with the DOE Office of 
Management, Budget and Evaluation/Chief Financial Officer and the 
Administration. The DOE Inspector General is currently auditing the 
first year's implementation, with a report expected in late Spring 
2003. Our near term goal is to extend more formalized PPBE roles and 
missions from our Headquarters organizations to the new NNSA Federal 
field structure and the M&O contractors as the NNSA re-engineering 
proceeds during the next 12-18 months. It will take several budget 
cycles and lessons learned to complete the culture change, and to 
properly staff the organization to fully realize the benefits of PPBE. 
The NNSA remains committed to this goal.
    The NNSA also participated in the Administration's Performance 
Assessment Rating Tool (PART) analyses, evaluating four programs that 
encompass about 20 percent of NNSA's annual funding. The PART 
assessment noted that the NNSA programs were well managed and that NNSA 
management was proactively working to make additional improvements to 
program effectiveness and efficiency. Two of the NNSA programs, 
Advanced Simulation and Computing and International Nuclear Materials 
Protection and Cooperation, were rated in the top 5 percent of programs 
government-wide and received the highest PART ratings of ``Effective'' 
from the Office of Management and Budget. The PART analysis tool 
embodies and reinforces the PPBE processes and discipline we are 
implementing throughout NNSA. We plan to incorporate the PART 
assessment for all of NNSA's programs as part of our annual Evaluation 
cycle, starting with the fiscal year 2005 budget this summer.
                               conclusion
    In conclusion, I remain confident that we are headed in the right 
direction. Our budget request will support continuing our progress in 
protecting and certifying our nuclear deterrent, reducing the global 
nuclear danger from proliferation and weapons of mass destruction, and 
enhancing the force projection capabilities of the U.S. nuclear Navy. 
It will enable us to continue to maintain the safety and security of 
our people, information, materials, and infrastructure. Above all, it 
will meet the national security needs of the United Stated in the 21st 
century.
    Mr. Chairman, this concludes my prepared statement. Now, I would be 
pleased to answer any questions that you and members of the Committee 
may have.

    Senator Domenici. I think what I am going to do is go to 
the Admiral and then have a few questions and observations 
before I get to Dr. Beckner.
    Ambassador Brooks. Certainly.
    Senator Domenici. All right. Admiral, might I say before 
you testify, that I am in the process, as part of my own 
recapping of my activities as a Senator, the process of putting 
a book together on nuclear and where we made mistakes as a 
Nation----
    Admiral Bowman. Sir.
    Senator Domenici [continuing]. In not proceeding with 
nuclear power. And I might suggest to you that, right up front, 
I use as an example the safety record of yours, and the fact 
that you now have well over 100 ships at sea with one or more 
nuclear power plants on board. You were denied access to no 
seaport other than one in New Zealand, which means that, for 
those who wonder about the safety or, conversely, the danger of 
nuclear fuel rods, the world has indicated that they permit 
them to move everywhere and anywhere in and about the seas, 
oceans, and seaports, and close to boats and far away from 
them, and nobody seems to be the least bit worried about the 
pollution that certainly would be very apt to exchange if there 
was something amiss, because nothing will carry it better than 
the water.
    Admiral Bowman. Sure.
    Senator Domenici. And it is a perfect setting for, where 
have we gone awry in being so frightened about what to do with 
spent fuel rods and what to do about them? So in that regard, 
much of what you have said and one of the late speeches that 
you made, I think, the year before last, is something we--I 
have been looking at very carefully, and we thank you for that.
    Admiral Bowman. Thank you, sir. I think smart ball for me 
would be to not testify now and just wait for additional 
questions.
    Senator Domenici. We will make your speech a part of the 
record in any event, but, sir, you had better talk.

                      STATEMENT OF FRANK L. BOWMAN

    Admiral Bowman. Well, thank you very much, Mr. Chairman, 
for those kind words and for the opportunity to testify today. 
With your permission, I do have a more detailed statement for 
the record.
    Senator Domenici. Yes, sir.
    Admiral Bowman. Let me also thank you, though, for the 
years and years of support that your committee and you 
personally have continued to provide this program. Without your 
support, that record that you just referred to would have been 
absolutely impossible. We have worked very hard to earn the 
trust and faith that you place in the program, and the citizens 
of this country place in this program. We will continue to do 
what is needed to make sure our nuclear fleet remains deployed 
around the world, fighting terrorism as it is doing right now.
    We all recognize the very serious threats our country faces 
today; some from hostile nations, some from organizations with 
no fixed borders, operating under a veil of secrecy and outside 
the international community.
    Right now, nuclear-powered warships are on the front line 
ready to strike against any threat to the Nation. Nuclear 
propulsion is and has been essential in providing the mobility, 
the flexibility, and the endurance that today's much-smaller 
Navy needs to meet a number of growing global missions. Events 
since September 11, 2001, have continually highlighted the 
value of Naval presence and, in particular, of nuclear power 
for the Navy's major combatants.
    On March 19, 2003, when Operation Iraqi Freedom began, 33 
nuclear-powered aircraft carriers and attack submarines were at 
sea. Three nuclear-powered aircraft carriers were ready to 
carry out the initial strike on Iraq. The U.S.S. Theodore 
Roosevelt, U.S.S. Abraham Lincoln, and U.S.S. Harry Truman, and 
U.S.S. Nimitz were on the way. The opening salvo of Operation 
Iraqi Freedom included Tomahawk cruise missiles launched from 
nuclear attack submarines. We had 10 nuclear attack submarines 
in the Red Sea alone.
    Some of these submarines had been covertly monitoring 
events offshore. By preparing for the attack and providing 
intelligence to national decisionmakers, submarines helped 
integrate the total battleship picture. This is just another 
example of the versatility and flexibility of these nuclear-
powered submarines.
    Recent U.S. military operations in Afghanistan, along with 
those associated with Operation Iraqi Freedom, re-validated, 
again, the value of these forward-deployed nuclear-powered 
carriers. These very powerful ships are four and a half acres 
of sovereign territory from which we can conduct sustained 
combatant operations and, as you said, without having to 
negotiate staging rights from, or overflight rights over, 
foreign soil. Diplomatic activity over the last year has shown 
how unpredictable and troublesome those issues can be. Nuclear 
power provides the flexibility for these ships to sprint where 
needed and arrive ready for action.
    Many of the impressive capabilities these nuclear-powered 
ships and submarines possess were developed with the funding 
that this committee has supported. The Navy's new Virginia-
class attack submarine will be delivered this coming summer--or 
summer of 2004, I should say. And the next generation class of 
aircraft carrier, CVN-21, will carry us through the 21st 
century and well beyond.
    Even though these new designs are important, Naval 
Reactors' number one priority is ensuring that the officers and 
sailors at sea operating these plants and defending our 
Nation's interests, are operating in a safe, effective, 
reliable situation. This is where most of Naval Reactors' 
funding goes.
    At the end of 2002, the average age of our nuclear-powered 
ships was 17 years. By 2012, 10 years from then, the average 
age will increase to over 24 years. As these ships age, they 
place a greater and greater demand on my budgets. And as 
critical components and systems fail in service or become 
obsolete and require replacement, the problem gets harder as 
time goes on.
    Since September 11, 2001, the demand for submarines has 
increased by 30 percent. We are trying to make do with the 
numbers we have, which are 54 attack submarines today, by 
running these submarines harder. If we continue to operate at 
today's operational tempo, these submarine reactor cores will 
not last the 30-plus years that we talked about last year.
    In response, and in conjunction with the new core design 
required by shifting to a lower uranium enrichment, Naval 
Reactors has begun work on an advanced transformational 
technology core that the Ambassador referred to, that will 
deliver a significant energy increase to future Virginia-class 
submarines.
    The TTC is a direct outgrowth of the program's advanced 
reactor technology work. It will also be a stepping stone for 
future reactor development. The TTC will use new core materials 
to achieve a significant increase in core energy density; more 
energy in the reactor without increasing the reactor size, 
weight, or space, and at a very reasonable cost.
    The TTC can do one or more of the following: We can extend 
the ship life if we ever go back to the pre-9/11 operating 
tempos, we can maintain the planned 30-plus-year lives if we 
continue on this increased operational tempo, or we can provide 
more power for the weapons and weapons systems of the future. 
It will not require any changes to the Virginia-class submarine 
itself or major designs within the propulsion plant.
    We are trying to do our part to help fill this gap of the 
need for submarines for the country. But this increased tempo 
of operations can only go so far and last so long. We really 
need to buy more submarines. And the only way we can get there 
is to buy submarines smarter, so we can afford more.
    Buying submarines one at a time will not achieve the 
numbers we need for the future, nor is it a cost-effective way 
to buy anything, including submarines. As included in the 
President's budget this year, multi-year procurements coupled 
with buying material and economic ordering quantity, and 
increasing production to two ships per year will provide 
significant savings. I ask for your support of innovative 
contracting approaches.
    Let me talk just very briefly, sir, about this year's 
budget request. Naval Reactors' fiscal year 2004 budget is $768 
million, an increase of some $49 million, 7 percent after 
inflation, compared to fiscal year 2003. The funding increase 
supports this transformational core that I was talking about 
plus accelerated remediation work and facility upgrades.
    The ongoing support of this committee is one of the most 
important factors in Naval Reactors' success story. This 
subcommittee has recognized the requirements and demands of our 
program, our growing need for power projection and forward 
presence far from home which further strains our aging nuclear 
fleet, and the funding required to meet these commitments today 
and into the future.
    The unique capabilities inherent in nuclear power have 
played a vital role over the past 50 years in our country's 
defense. This legacy is strong. It is as strong and vibrant 
today as it ever has been. With your continued support, it will 
continue far into the future. Naval Reactors' record is strong 
as you mentioned, sir, and the work is important, and the 
funding needs, I think, are modest.

                           PREPARED STATEMENT

    Mr. Chairman, also, with your permission, I would like to 
submit for the record the program's annual environmental 
occupational radiation exposure and occupational safety and 
health reports. I thank you for your continued support.
    Senator Domenici. It will be made a part of the record. 
Thank you.
    [The statement follows:]
                 Prepared Statement of Frank L. Bowman
    Thank you for inviting me to testify on Naval Reactors' fiscal year 
2004 Department of Energy/National Nuclear Security Administration 
budget request.
    Let me also thank you for the support you continue to provide my 
Program. I know that with your support, we will continue the success we 
have had for more than 50 years. We have worked hard to earn the trust 
and faith you place in the Program. We will continue to do what is 
necessary to ensure our nuclear fleet remains deployed around the 
world, actively involved in Operation Iraqi Freedom and the Global War 
on Terrorism (GWOT).
    We all recognize the serious threats our country faces today. The 
threats come not only from hostile nations, but also from organizations 
with no fixed borders, operating under a veil of secrecy and outside 
the international community.
    Nuclear-powered warships are on the frontline ready to strike 
against any threat to our national interests and to respond to any 
aggression against the United States. Nuclear propulsion is essential 
in providing the flexibility, speed, endurance, and multimission 
capability that today's smaller Navy requires to meet a growing number 
of global missions.
    Last year, I recounted the events of September 11, 2001, and how 
rapidly nuclear-powered warships were able to get on-station in the 
North Arabian Sea--validating again the value that nuclear power brings 
to our Navy. I discussed the significant contributions that nuclear-
powered warships made during Operation Enduring Freedom.
    I'm here to tell you this year that as the events of the GWOT and 
Operation Iraqi Freedom unfold, the value of naval presence, and in 
particular of nuclear power for the Navy's major combatants, has been 
continually highlighted.
    Over the past year, U.S. military operations in Afghanistan and the 
Persian Gulf have revalidated and underscored the value of forward-
deployed nuclear-powered warships. Nuclear-powered submarines have been 
covertly monitoring al Qaeda, providing intelligence to national 
decisionmakers for the GWOT. Keeping track of merchant ships that have 
possible connections with al Qaeda--knowing who's aboard, what the 
ships are carrying, what the names of the ships are, what color they 
are when they go into port, and what different color they might be when 
they come out of port--is all of inestimable value to our Nation during 
the GWOT.
    On March 19, 2003, when Operation Iraqi Freedom began, there were 
33 nuclear-powered warships, both aircraft carriers and attack 
submarines, at sea. Three nuclear-powered aircraft carriers were ready 
to carry out the initial air strikes on Iraq--USS THEODORE ROOSEVELT 
(CVN 71), USS ABRAHAM LINCOLN (CVN 72), and USS HARRY S. TRUMAN (CVN 
75)--with USS NIMITZ (CVN 68) on the way. The opening salvo of 
Operation Iraqi Freedom included Tomahawk cruise missiles launched from 
nuclear-powered attack submarines.
    Nuclear-powered aircraft carriers continue to provide 4\1/2\ acres 
of sovereign U.S. territory from which we can conduct sustained combat 
operations quickly without having to negotiate staging rights on--and 
potentially overflight rights across--foreign soil. Diplomatic activity 
over the last couple of months has shown how unpredictable and 
troublesome these issues can be. Nuclear power enhances these warships' 
capability and flexibility to sprint where needed and arrive ready for 
around-the-clock power projection and combat operations. Sustained 
high-speed capability (without dependence on a slow logistics train) 
enables a rapid response to changing world circumstances, allowing 
operational commanders to surge these ships from the United States to 
trouble spots or to shift them from one crisis area to another. Nuclear 
propulsion helps the Navy stretch available assets to meet today's 
worldwide commitments.
    Again and again, the ability to change from mission to mission is 
demonstrated by our nuclear-powered warships. The versatility and 
flexibility of our nuclear-powered attack submarines and aircraft 
carriers are vital to defending our national interests. As we look to 
the future, new and extremely valuable missions and capabilities are on 
the horizon for nuclear-powered warships. In January 2003, the highly 
successful SSGN GIANT SHADOW experiment onboard USS FLORIDA tested 
strategic concepts and hardware that could double or triple the value 
of submarines while reducing risk to the crews. GIANT SHADOW explored 
how a network of forces--a network including submarines carrying 
unmanned underwater vehicles (UUVs), unmanned aerial vehicles (UAVs), 
and various aerial, underwater, and ground sensors--could be used to 
provide surveillance, collect real-time intelligence, develop and 
recommend a course of action for the joint commander, and launch a 
time-critical strike, including covertly deploying special forces 
ashore. This capability will offer powerful options to force commanders 
for covert surveillance and weapons delivery.
    In our unstable world environment, nuclear-powered warships will 
continue to adapt. They will be ready to meet the changing needs of our 
national security today, and in the future.
                 nuclear power--today and in the future
    A forward-deployed, highly mobile Navy is imperative for the Navy's 
Sea Power 21 in support of our country's global responsibilities and 
obligations. Nuclear power delivers that mobility and delivers the 
endurance that goes with it, both of which are absolutely necessary in 
the world today, and as far out into the future as I can see.
    Many of the impressive capabilities these ships possess were 
developed with funding that was supported by this subcommittee.
    Naval Reactors' number-one priority is ensuring that the officers 
and sailors at sea defending our Nation's interests are operating safe, 
effective, reliable nuclear propulsion plants. This is where most of 
Naval Reactors' funding goes. Today, the Naval Reactors Program 
supports 103 reactors (the same number of reactors that operate 
commercially in this country) in 54 operational attack submarines, 16 
ballistic missile submarines, 2 SSGNs (under conversion), 9 nuclear-
powered aircraft carriers, 4 training and prototype platforms, and a 
deep submergence vehicle. In addition, we are in the various stages of 
building five more attack submarines and three carriers, and refueling 
four LOS ANGELES-class submarines and one NIMITZ-class carrier.
    At the end of 2002, the average age of these ships was 17 years. By 
2012 the average age will increase to over 24 years (see chart 1). As 
these ships age, they place a greater and greater demand on Naval 
Reactors' DOE budgets as key components and systems obsolesce and 
require replacement.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Another priority of the Program is designing and developing new 
nuclear propulsion plants to meet the Nation's needs. The Navy's new 
VIRGINIA-class attack submarine will be delivered in summer 2004; and 
the next-generation class of aircraft carriers, CVN-21, will carry us 
through the 21st Century and well beyond. Naval Reactors has begun work 
on an advanced Transformational Technology Core (TTC) that will deliver 
a significant energy increase to future VIRGINIA-class submarines.
    Since September 11, 2001, the Combatant Commanders' demand for 
submarines has increased 30 percent, which validates the need for 68-70 
attack submarines. We are attempting to make do with the numbers we 
have (54 attack submarines today) by running these submarines harder. 
We have increased our transit speed (speed of advance), increased our 
operating tempo (time underway during deployment), and reduced our 
turnaround ratio (which means the non-deployed time divided by the time 
deployed). Before September 11, 2001, our basis for planning had been 
to move these submarines from point A to point B at 16 knots. Today, 
many submarines travel from point A to point B to point C at 20 knots. 
The Navy's planning goals state that we should be operating while 
deployed for 65 percent of the underway time (35 percent in port, 
showing the flag and giving the crew some much needed rest or doing 
some needed maintenance). Instead, most deployed attack submarines are 
now at about 80 percent operational tempo. So we are trying to make 
ends meet, but what's going to give at the end of the day is reactor 
core endurance, because we are burning uranium out of these cores at a 
much faster rate. If we continue to operate at today's level, these 
submarine reactor cores will not last the 30-plus years we had planned.
                   ttc--right core at the right time
    To help meet these ever-increasing national security demands with a 
too-small submarine fleet, Naval Reactors has begun conceptual studies 
on the Transformational Technology Core. The TTC is a direct outgrowth 
of the Program's advanced reactor technology work. It is a stepping 
stone for future reactor development; this development should support 
procurement of the first core in about fiscal year 2008 for insertion 
into a 2010 Virginia Class.
    The TTC will use new core materials to achieve a significant 
increase in core energy density (that is, more energy in the reactor 
without increasing reactor size, weight, or space) and at a reasonable 
cost. The timing of TTC development also corresponds to the need to 
transition from 97 to 93 percent enriched uranium fuel--necessitated by 
the decision to use uranium from retired nuclear weapons as starter 
material for naval nuclear reactors in order to allow shutting down 
U.S. highly enriched uranium enrichment facilities.
    The TTC can do one or a combination of the following:
  --Extend ship life if we return to past usage rate.
  --Increase operating hours per operational year.
  --Increase average power during ship operations, which could enable 
        the offboard sensors and UUV/UAV concepts or the higher speed 
        of advance discussed earlier
    TTC will also save taxpayers' dollars. Once we achieve the 
submarine force level needed to meet national security requirements, 
increasing ship life will reduce the number of ships we need to buy to 
sustain the force level.
    The TTC is intended for forward fitting in VIRGINIA-class 
submarines, which will be the mainstay of the submarine fleet in future 
decades. We believe the first TTC will be available for installation in 
a 2010 VIRGINIA-class ship; at that time 14 of the expected 30 ships 
will be at sea or under construction. Because the TTC will not require 
a VIRGINIA-class ship redesign, the end result is significantly greater 
operational ability and flexibility. The TTC is truly the right core at 
the right time.
    Although the TTC will help submarines better meet increasing 
operational demands, the only long-term solution to meeting force level 
requirements is to build more submarines. It is imperative that we 
increase the VIRGINIA-class submarine build rate to meet the Nation's 
long-term force level requirement for attack submarines. To that end, 
the President's budget supports one VIRGINIA-class ship per year until 
2006 and then 2 per year in 2007 and 2008.
    The practice of buying submarines one at a time will not achieve 
the submarine numbers we need for the future, nor is it a cost-
effective way to buy anything, including submarines. This year's 
shipbuilding plan helps the Navy get to where it needs to be by 
procuring two per year starting in fiscal year 2007. In addition, the 
increased production coupled with a multi-year procurement strategy 
that includes material buys in economic ordering quantities will 
provide significant savings (see chart 2).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          fiscal year 2004 department of energy budget request
    Naval Reactors' fiscal year 2004 DOE budget request is $768.4 
million, an increase of $49 million (after inflation) from fiscal year 
2003 to fiscal year 2004. The funding increase supports 
Transformational Technology Core (TTC) development, remediation work, 
and facility upgrades.
  --TTC ($33 million increase).--As discussed earlier, Naval Reactors 
        has begun conceptual studies on the TTC to meet ever-increasing 
        national security demands caused by a smaller Fleet size and 
        higher operating tempo. Based on design core life, continuing 
        the current ship operating tempo could reduce the expected 
        submarine core life to less than 30 years. The TTC could extend 
        ship life beyond 33 years by at least 30 percent if we return 
        to the baseline operating tempo, or increase annual operating 
        hours or average power output without increasing the current 
        size, weight, or space of the current reactor. The TTC will be 
        provided at a reasonable cost while enabling the Fleet to meet 
        the increasing demand on the operating nuclear-powered ships.
  --Remediation ($10 million increase).--Naval Reactors will continue 
        remediation efforts at Program sites in New York, Pennsylvania, 
        and Idaho. It is important that we continue our ``clean as we 
        go'' policy, to minimize any potential impact on the 
        environment or site workers. Over the past few years, older 
        facilities have been inactivated at a faster pace than our 
        cleanup rate has been able to match, and additional facilities 
        will be inactivated over the next several years. Accelerating 
        cleanup is necessary to minimize the potential for future 
        chemical or radiological releases to the environment, to 
        minimize the costs of maintaining idle facilities, and to free 
        up central areas at the various sites for future Program use.
  --Facilities ($6 million increase).--Naval Reactors has consistently 
        funded facility and infrastructure maintenance within Program 
        targets. However, additional funding is necessary to accomplish 
        major maintenance and replacement of some of the Program's 
        more-than 50-year-old infrastructure, located in New York, 
        Pennsylvania, and Idaho. Significant infrastructure work is 
        required to ensure protection, preservation, and continued 
        reliable operation of Program facilities. Naval Reactors has 
        worked within targets to maintain facilities, but the cost of 
        necessary work now exceeds current funding.
    Naval Reactors supports the 82 nuclear-powered warships that make 
up over 40 percent of the Navy's major combatants. This responsibility 
includes ensuring safe and reliable operation of reactor plants in 
these ships, enhancing the reactor plants' performance, and developing 
improved reactor plants to support the Navy's needs for the future.
    Sustaining today's 103 operating reactors (the country also has 103 
commercial reactors) requires continual analysis, testing, and 
monitoring of plant and core performance. Nuclear propulsion is a 
demanding technology--the harsh environment within a reactor plant 
subjects equipment and materials to the harmful effects of irradiation, 
corrosion, high temperature, and high pressure over a lifetime measured 
in decades. In addition, naval reactor plants must have the resilience 
to respond to rapidly changing demands for power; be robust enough to 
withstand the rigors of battle and shock and to accommodate ships' 
pitching and rolling; and be safe and easily maintainable by the 
Sailors who must live next to them.
    Naval Reactors' DOE laboratories have made significant advancements 
in components, materials, core lives, and predictive capabilities. 
These advancements allowed the Navy to extend the service life and 
intervals between major maintenance periods for nuclear-powered 
warships and to reduce ship offline time for maintenance. Increasing 
ship availability also increases the Navy's warfighting capability and 
supports the Navy's unplanned surge requirements that we've seen 
recently, while reducing maintenance costs. Added ship availability is 
particularly important in the face of Fleet downsizing because the 
operational demands on each remaining ship continue to increase. In the 
same vein, some development effort is devoted to ensuring that Naval 
Reactors can meet the Navy's need to extend warship lifetime. Longer 
ship lifetimes are achievable because we are able to extend reactor 
plant lifetime. But longer lifetimes require more resources to support 
an older fleet.
    We have been able to extend the lifetime of some existing reactor 
plants because of the robust designs that resulted from solid 
engineering done over the past 50 years. After significant additional 
engineering, we determined that those reactor plants will be able to 
stay in service longer than we had originally intended. The engineering 
work to support those ships in their extended lives will continue 
during that extension. For new reactor core and reactor plant designs, 
we are using the experience of the past 50+ years to incorporate 
improvements into both design and construction. It is imperative that 
we continue to deliver robust designs. It is equally important that we 
do the necessary engineering work now to ensure that those reactor 
plants are able to meet the needs of national defense now, and for the 
next several decades.
    New plant development work at the Program's DOE laboratories is 
focused on completing the design of the next-generation submarine 
reactor for the Navy's new VIRGINIA-class attack submarines, continuing 
the design for CVN-21, and working on the Transformational Technology 
Core. In order to accommodate this work, we have had to throttle back 
on some promising advanced concepts technologies that include high-
temperature fuel and direct energy conversion.
    The design of the reactor plant for the VIRGINIA-class submarine is 
nearly complete. Shipboard acceptance testing continues. VIRGINIA will 
go to sea early next year and will provide needed capability for the 
Navy at an affordable price.
    The CVN-21 nuclear propulsion plant design is well underway. CVN-21 
is the first new carrier designed since the 1960's NIMITZ class. The 
CVN-21 reactor plant will build on three generations of nuclear 
propulsion technology developed for submarines since NIMITZ. The new 
high-energy reactor design for CVN-21 represents a quantum leap in 
capability. Not only will CVN-21 enable the Navy to meet operational 
requirements of the future, but just as importantly, it will provide 
flexibility to deal with changing warfighting needs in the future. 
Reactor plant design work is on schedule to support the long design and 
manufacturing lead-times of reactor plant components needed for the 
CVN-21 construction schedule.
    Major inactivation work on seven shutdown prototype reactors is 
finished. The four prototype reactors at the Naval Reactors Facility in 
Idaho are defueled and in an environmentally benign, safe layup 
condition; site and reactor plant related remediation work, including 
State-mandated inactivation efforts, is planned for fiscal year 2003 
and future years. Dismantlement and cleanup work at the Windsor site in 
Connecticut is complete, and approval from the EPA and the State to 
release the site for unrestricted future use and property transfer is 
expected in fiscal year 2004. The two shutdown prototype reactors at 
the Kesselring site in New York have been inactivated and defueled, and 
major dismantlement work was completed in fiscal year 2002. Other 
inactivation work is continuing.
    The MARF and S8G prototypes in New York continue to operate to 
train students and provide a test platform for new nuclear propulsion 
plant equipment. There are no near-term plans to inactivate these 
plants.
   naval reactors fiscal year 2004 department of energy budget detail
    Since the early 1990s Naval Reactors' DOE budgets have decreased 
more than 30 percent. The Program's DOE budget has been flat (in real 
terms) from 2000 to 2003. To live within our means over the past 
several years, Naval Reactors has eliminated infrastructure, 
consolidated functions and facilities, revised work practices to become 
more efficient, and downsized the nuclear industrial base. Bettis 
Atomic Power Laboratory and Knolls Atomic Power Laboratory, the 
Program's two laboratories, respectively have the first and the third 
lowest overhead costs as a percentage of total budget out of 30 DOE 
sites featured in the ``fiscal year 2001 Functional Support Cost Report 
of 30 Major DOE Contract Sites.''
    Naval Reactors' technical budget request is categorized into four 
areas of technology: Reactor Technology and Analysis, Plant Technology, 
Materials Development and Verification, and Evaluation and Servicing. 
This approach supports the integrated and generic nature of our DOE 
research and development work. The results of Naval Reactors DOE-funded 
research, development, and design work in the following technology 
areas will be incorporated into future ships, and retrofitted into 
existing ships.
  --The $236.5 million requested for Reactor Technology and Analysis 
        will continue design work on both the next-generation reactor 
        for the VIRGINIA-class submarine and the new reactor for CVN-
        21, and will ensure the safe and reliable operation of existing 
        reactors. The reduction in operating plant maintenance periods 
        places greater requirements on thermal-hydraulics, structural 
        mechanics, fluid mechanics, and vibration analysis work to 
        predict reactor performance more accurately and to identify and 
        avoid problems. The continued push for longer life cores means 
        that our reactors will have to operate beyond our operational 
        experience base for many years to come. Fortunately, improved 
        analysis tools and understanding of basic nuclear data will 
        allow us to predict performance more accurately and thus better 
        ensure safety throughout the extended core life. Other efforts 
        in this area include revising core manufacturing processes to 
        reduce cost and hazardous waste, performing reactor safety 
        analyses, designing advanced control drive mechanisms, 
        developing components and systems to support the Navy's 
        acoustic requirements, and developing improved shield designs 
        to reduce both weight and costs. These efforts support the 
        introduction of the Transformational Technology Core, a new 
        high-energy core to support increased Fleet operational 
        requirements. TTC is a direct outgrowth of the Program's 
        advanced reactor technology work and will not only help meet 
        national security demands, but also serve as a stepping stone 
        for future reactor plant development.
  --The $131.4 million requested for Plant Technology provides funding 
        to develop, test, and analyze components and systems that 
        transfer, convert, control, and measure reactor power in a 
        ship's power plant. Reactor plant performance, reliability, and 
        safety are maintained by a full understanding of component 
        performance and system condition throughout the life of a ship. 
        The request reflects the goal of enhancing steam generator 
        performance, which will benefit both CVN-21 and VIRGINIA-class 
        steam generators. Development work for improving VIRGINIA steam 
        generator performance is needed to meet energy and power 
        requirements for the TTC. Naval Reactors is developing 
        components to address known limitations or to improve 
        reliability of instrumentation and power distribution equipment 
        to replace aging, technologically obsolete equipment that is 
        increasingly difficult to support. Additional technology 
        development in the areas of chemistry, energy conversion, 
        instrumentation and control, plant arrangement, and plant 
        components will continue to improve reactor performance and 
        support Fleet operational requirements.
  --The $137.7 million requested for Materials Development and 
        Verification funds material analyses and testing necessitated 
        by our having extended the life of our ships beyond the 
        original projection. It also funds a portion of Naval Reactors' 
        work at the Advanced Test Reactor (ATR), a specialized 
        materials testing facility operated by the DOE Office of 
        Nuclear Energy, Science, and Technology. Materials in the 
        reactor core and reactor plant must perform safely and reliably 
        for the extended life of the ship. Testing and analyses are 
        performed on the fuel, poison, and cladding materials to verify 
        acceptable performance, as well as to develop materials with 
        increased corrosion resistance. Testing and development of 
        reactor plant materials also ensures reliable performance and 
        leads to improvements such as reduced stress in materials and 
        reduced potential for cracking.
  --The $161.3 million request for Evaluation and Servicing sustains 
        the operation, maintenance, and servicing of land-based test 
        reactor plants and part of Naval Reactors' share of the 
        Advanced Test Reactor. Reactor core and reactor plant 
        materials, components, and systems in these plants provide 
        important research and development data and experience under 
        actual operating conditions. These data aid in predicting and 
        therefore preventing problems that could develop in Fleet 
        reactors. With proper maintenance, upgrades, and servicing, the 
        two operating test reactor plants and the ATR will continue to 
        meet testing needs for quite some time.
          Evaluation and Servicing funds also support the initiation of 
        a dry spent fuel storage process line that will allow us to put 
        naval spent fuel currently stored in water pits at the Idaho 
        Nuclear Technology and Engineering Center and the Expended Core 
        Facility at the Naval Reactors Facility (NRF) into dry storage 
        at NRF. This process has now begun and will require small 
        increases to the Naval Reactors budget request in future years. 
        Additionally, these funds support ongoing cleanup of facilities 
        at all Naval Reactors sites to minimize hazards to personnel 
        and reduce potential liabilities due to aging facilities, 
        changing conditions, or accidental releases.
         program infrastructure and administrative requirements
    In addition to the budget request for the important technical work 
discussed above, infrastructure and administrative funding is also 
required for continued operation of the Program. Specifically, the 
fiscal year 2004 budget request includes:
  --Facility Operations.--$57.7 million in funding is to maintain and 
        modernize the Program's facilities, including the Bettis and 
        Knolls laboratories and the Expended Core Facility (ECF), 
        through Capital Equipment purchases and General Plant Project 
        upgrades. Because the cost of necessary work currently exceeds 
        funding, Naval Reactors has requested an additional $6.0 
        million in the fiscal year 2004 budget to help accomplish major 
        maintenance and replacement of some of the Program's more-than 
        50-year-old infrastructure to ensure protection, preservation, 
        and continued reliable operation of Program facilities.
  --Construction.--$18.6 million in funding is to refurbish and replace 
        Program facilities. This includes the continuation of the ECF 
        Dry Cell project in Idaho, a project that will significantly 
        improve Naval Reactors' ability to process naval spent fuel for 
        dry storage. (Under a Settlement Agreement signed by the 
        Department of Energy, the Navy, and the State of Idaho, Naval 
        Reactors spent fuel must be among the early shipments to the 
        first permanent repository or interim storage facility.) The 
        requested funding also enables the continuation of the 
        Cleanroom Technology Facility.
  --Program Direction.--$25.2 million in funding is to cover Naval 
        Reactors' 186 DOE personnel at Headquarters and the Program's 
        field offices, including salaries, benefits, travel, and other 
        expenses. This staff maintains oversight of the Program's 
        extensive day-to-day technical and administrative operations, 
        while continuing to ensure compliance with growing 
        environmental, safety, and other regulatory requirements--all 
        of which, notwithstanding our excellent record, necessitate 
        substantial effort.
                     president's management agenda
    The President's Management Agenda promotes efficiency and 
improvement. All Federal agencies are adopting and implementing the 
initiatives where feasible. Naval Reactors has a proven track record of 
results, especially within the following two areas of the President's 
Management Agenda:
Budget and Performance Integration
    Naval Reactors planning leads to well-documented, quantifiable, 
proven accomplishments. The Program consistently meets midterm and end-
of-year goals. Milestones and research outputs are clearly linked to 
the long-term Program goals of supporting operating naval nuclear 
propulsion plants, providing new propulsion plants to meet national 
security requirements, and maintaining outstanding environmental 
performance.
    Naval Reactors' comprehensive multi-year planning process requires 
all Program activities to identify performance indicators clearly. This 
process ensures that the Program continually meets or exceeds its 
performance goals.
Better R&D Investment Criteria
    Naval Reactors work builds on existing generic technology and as 
such is evolutionary in nature. For general development efforts, the 
Program's multi-year planning process helps measure progress and 
ensures that goals are achieved. During reviews, competing lines of 
research are evaluated to ensure that the highest priority work is 
accomplished within existing resources. Each individual development 
effort has clear starting and ending points, with established 
milestones and off ramps. All plant types benefit from development work 
targeted at specific platforms--including work on new, advanced plant 
types, which could benefit existing submarines and aircraft carriers.
          performance measurements, goals, and accomplishments
    Naval Reactors has a long history of operating with the highest 
levels of integrity and operational accountability. Our husbanding of 
taxpayer dollars provided by this subcommittee is well recognized. Last 
year in forwarding the President's fiscal year 2003 budget request to 
you, the Office of Management and Budget (OMB) rated Naval Reactors as 
``Effective''--the highest rating on OMB's scale--and noted: ``Outputs 
are identifiable and make key contributions to national security. 
Delivery schedules are consistently met. Contracts have positive and 
negative incentives, and include performance requirements.''
    Furthermore, in a report dated December 12, 2001, the General 
Accounting Office recognized Naval Reactors' strong performance within 
DOE and NNSA. The report stated: ``The Office of Naval Reactors, which 
is a part of NNSA, has long been recognized as having a focused 
mission, strong leadership, clear lines of authority, long-serving 
employees, and a strong set of internal controls, as well as a culture 
that enhances accountability and good control over its costs and 
contractor performance.'' The Naval Reactors Program has always been 
dedicated to continual improvement. We use semiannual reviews of short- 
and long-range plans to rebaseline work and revisit Program priorities. 
Monthly financial reports from contractors are used to compare actual 
performance against Projected performance. Additionally, Naval Reactors 
Headquarters maintains close oversight of its Management and Operating 
contractors through periodic reviews, formal audits, and performance 
appraisals.
    For the fiscal year 2002 end-of-year performance results, my 
Program met or exceeded all major performance targets. We ensured the 
safety, performance, reliability, and service life of operating 
reactors for uninterrupted support of the Fleet. We exceeded 90 percent 
utilization availability for test reactor plants. By the end of fiscal 
year 2002, U.S. nuclear-powered warships had safely steamed over 124 
million miles. Naval Reactors developed new technologies, methods, and 
materials to support reactor plant design, which included surpassing 
the fiscal year 2002 goal of 96 percent design completion of the next-
generation submarine reactor. We initiated detailed design on the 
reactor plant for the next-generation aircraft carrier, which is on 
schedule to meet the planned ship construction start. Additionally, 
Naval Reactors maintained its outstanding environmental performance--no 
personnel exceeded Federal limits (5 rem per year) for radiation 
exposure, and program operations had no adverse impact on human health 
or the quality of the environment.
    Naval Reactors expects to meet or exceed all fiscal year 2003 
performance targets, which are to achieve 90 percent utilization 
availability for operation of test reactor plants; to exceed 126 
million miles safely steamed; to complete 99 percent of the next-
generation submarine reactor; to complete 55 percent of the CVN-21 
reactor design; to continue ensuring that no personnel exceed 5 rem per 
year of radiation exposure; and to have no adverse impact on human 
health or the quality of the environment.
                               conclusion
    The ongoing support of the Senate Appropriations Committee 
Subcommittee on Energy and Water Development is one of the most 
important factors in our success story. The subcommittee has recognized 
the requirements and demands the Program confronts daily: a growing 
need for power projection and forward presence far from home, which 
strains our dwindling number of nuclear ships; an aging nuclear fleet; 
and the funding required to meet these commitments today and in the 
future.
    The unique capabilities inherent in nuclear power have played a 
vital role over the past 50 years in our Nation's defense. This legacy 
is as strong and vibrant today as it ever has been. With your support, 
this legacy will continue far into the future as the Nation meets each 
new threat with strength and resolve. Naval Reactors' record is strong, 
the work important, the funding needs modest.
    I thank you for your support.

    Senator Domenici. Perhaps we will just proceed rather 
quickly with the next witnesses. I do not think it will take 
too long.
    Okay, Dr. Beckner.

                     STATEMENT OF EVERET H. BECKNER

    Dr. Beckner. Mr. Chairman, members of the subcommittee, it 
is a pleasure to be here this afternoon to review several 
significant programmatic accomplishments.
    As Ambassador Brooks has highlighted, the stockpile 
stewardship program has allowed us again this year to certify 
to the President that the nuclear weapons stockpile is safe, 
secure, and reliable. And at this time, there is no need to 
resume underground testing.
    Using the cutting-edge scientific and engineering tools of 
stewardship, we have a more complete understanding of the 
condition of the stockpile with each passing year. We annually 
withdraw approximately 100 weapons from the active stockpile 
and perform a comprehensive diagnostic exam of the weapons at 
the Pantex plant. This examination studies the hundreds of 
parts that make up the weapon. While most of these weapons are 
reassembled and returned to the services, several are subject 
to destructive evaluation, providing us additional insights 
into the health of the stockpile.
    To ensure that the existing stockpile continues to meet its 
military requirements, the NNSA also has a comprehensive 
refurbishment program known as stockpile life extension where 
we are presently working on four warhead types in the enduring 
stockpile, the W-76, W-87, B-61, and the W-80. This program 
designs, builds, tests, and installs new subsystems and 
components, thereby extending the operational service life for 
those warheads. For example, we have already refurbished the 
parts from nearly three-quarters of all W-87 warheads for the 
Air Force. NNSA is also restoring the full suite of 
manufacturing capabilities needed to respond to any stockpile 
contingency.
    As you can see, while we are maintaining and refurbishing 
the stockpile, with each passing year it is getting to be a bit 
harder to do so. In fact, it now appears that by the year 2020 
or so, we will have refurbished every weapon in the stockpile.
    Returning to the present, as members of this committee are 
aware, we are installing an interim pit production capability 
at Los Alamos. Within the next few weeks we expect Los Alamos 
to deliver a W-88 pit, as Ambassador Brooks stated. It will 
meet all quality manufacturing requirements for use in the 
stockpile. It will be the first certifiable pit made by the 
United States since the shutdown of Rocky Flats in 1989.
    To obtain a better permanent manufacturing capability NNSA 
has begun work on design and siting for a modern pit facility 
that will be capable of manufacturing all pit types for the 
current stockpile and any new requirements that we can 
reasonably foresee should they arise.
    To complete the material supply story, NNSA has recently 
restarted wet chemistry operations at the Y-12 plant in Oak 
Ridge, Tennessee, to produce highly-enriched uranium metal. And 
further, we will begin producing new tritium for the stockpile 
by irradiation of tritium-producing rods at a TVA reactor this 
fall. To complete the story on tritium, in concert with the 
Defense Department, we have adjusted the tritium production 
plans to reflect changes resulting from the MPR and the Moscow 
Treaty.
    Critical to many aspects of stewardship is the role of 
secure transportation. Again, this year, this organization of 
Federal agents has safely and securely moved nuclear weapons, 
nuclear components, and special nuclear materials over a 
hundred million miles without serious accidents or compromise 
of cargo. Our agents, many of them veterans of the armed 
services, are highly skilled and authorized to use deadly force 
in the performance of their duties.
    But stewardship is more than maintenance and refurbishment; 
it is also about the future. With the support of the Congress, 
we are investing in leading edge scientific and engineering 
tools required to support the stockpile now and into the 
future.
    Three areas deserve special mention. First, the Advanced 
Scientific Computing Initiative, ASCI. Over the last several 
years we have deployed several world class super computers: 
White at Lawrence Livermore, Q at Los Alamos, and Red Storm at 
Sandia. These machines are working full-time to address SFIs 
and to support the important life extension work I mentioned 
earlier.
    Late next year we will begin to take delivery of two even 
more capable machines including the largest and most capable 
machine in the world, a 100 TeraOPS machine at Lawrence 
Livermore National Laboratory. This suite of capabilities is 
allowing us to solve critical weapons assessment problems that 
only a few years ago were impossible.
    Two, the Dual Access Radiographic Hydro Test Facility at 
Los Alamos, called DARHT, is providing CAT-scan-like images of 
weapons implosion processes. This facility is proving to be 
even better than we anticipated in providing critical 
hydrodynamic data to validate the ASCI codes. Increasingly, 
this facility will become our workhorse for the study of ultra-
high density hydrodynamics, providing data previously available 
only from full-scale testing.
    And three, I am also pleased to report that the National 
Ignition Facility at Lawrence Livermore National Laboratory 
continues to make excellent progress in meeting and even 
exceeding its technical milestones. On March 6, laboratory 
scientists delivered four beautiful beams of ultraviolet laser 
light into the target chamber well ahead of schedule. Stockpile 
stewardship experiments in the NIF will begin in fiscal year 
2004.
    Now, let me say a few words about the changes we are 
planning in the fiscal year 2004 budget submission in response 
to the Nuclear Posture Review and the threats this country 
faces today. To ensure that future American presidents have 
deterrent options to deal with these threats, we are proposing 
a modest increase in the advanced concepts program in 2004.
    The most significant elements of that program will be the 
Robust Nuclear Earth Penetrator, RNEP, which was mentioned 
previously. As you know, this program will be conducted jointly 
with the Air Force to examine whether or not one of two 
existing warheads in the stockpile, the B-61 or the B-83, can 
be sufficiently hardened, packaged, and delivered to allow the 
weapon to survive penetration into various geologies and 
attack-hardened, buried targets with high reliability. The 
remaining $6 million of advanced concepts funds will be divided 
between the weapons labs for studies of other new concepts.
    Mr. Chairman, that concludes my remarks. I would be pleased 
to answer your questions.
    Senator Domenici. Thank you very much.
    Mr. Baker, it is good to have you back.

                     STATEMENT OF KENNETH E. BAKER

    Mr. Baker. Thank you, it is always a pleasure to brief you, 
sir, on our program----
    Senator Domenici. Thank you.
    Mr. Baker [continuing]. And the opportunity to give you, 
sir, our 2004 budget request.
    NNSA's nonproliferation activities are central to the Bush 
administration's national strategy to combat weapons of mass 
destruction. NNSA continues to be committed to the 
nonproliferation mission as reflected in the breadth of our 
programs to address nonproliferation concerns in Russia, other 
former Soviet states and, increasingly, throughout the world.
    The nonproliferation challenge is multidimensional, and our 
budget request addresses the challenges on many fronts and in 
many places. While much of our work is with Russia, we are 
taking global commitments to address global threats.
    September 11, 2001, and the aftermath have made it clear 
that the threat comes not only from so-called rogue states, but 
some national terrorist organizations that may take any 
imaginable step to pursue their ruthless ends. The threat can 
come from any region and can take many forms. So we need to 
address it broadly.
    Our 2004 request, as Ambassador Brooks has stated, is 31 
percent above last year's appropriation. Most of the money is 
in three areas. First, the United States and Russia are nearing 
agreement on purchasing Russian highly-enriched uranium for 
research, U.S. research reactors, and down-blending uranium 
from Russian weapons for its strategic uranium reserve. We have 
requested $30 million for this initiative. This is in addition 
to the approximately 170 metric tons of weapons usable material 
already blended down and sent to USEC.
    The largest fiscal year 2004 budget request is about $276 
million that supports our plutonium disposition program. The 
United States and Russia will each dispose of 34 metric tons of 
weapons-grade plutonium by irradiating it in mixed oxide, MOX, 
fuel in existing nuclear reactors. Russia has told us that they 
will use the U.S. design for the MOX fuel fabrication facility, 
thus ensuring the programs remain roughly on the same schedule. 
Construction of both U.S. and Russian MOX fuel facilities is 
scheduled to begin in fiscal year 2004.
    We have also requested a small increase in another program 
to fund the IAEA additional protocol, and to help the IAEA 
verify the extent and dismantlement of foreign clandestine 
nuclear programs.
    With this background, sir, I would like to touch on a broad 
range of programs that we will pursue to support the 
President's nonproliferation agenda with your help. We are 
working with the global partners to reduce the proliferation 
threats. For example, the global partnership against the spread 
of weapons of mass destruction, formed at Kananaskis summit in 
June 2002, has recommitted the G-8 nations to increase greatly 
the assistance to the nonproliferation, disarmament, 
counterterrorism and nuclear safety area. The partnership has 
pledged to provide $20 billion over the next 10 years for the 
nonproliferation and threat reduction in Russia and elsewhere. 
The United States will provide half of that money.
    We are working with the international community to better 
secure high-risk radioactive sources that can be used for dirty 
bombs. Six weeks ago, Secretary Abraham presided over an 
international conference on this issue which was attended by 
750 participants and 124 countries, far beyond our 
expectations. And I think there could be no better symbol on 
how seriously this world takes the dirty bomb. There is much to 
be done and the fiscal year 2004 request is $36 million for 
this purpose.
    We are continuing to provide physical security of nuclear 
material through the IAEA, through bilateral arrangements, such 
as materials protection control and an accounting program in 
Russia. In fiscal year 2004 this will include security upgrades 
to approximately 24 additional metric tons of Russian nuclear 
material and 1,200 Russian navy nuclear warheads, in general. 
We expect to be complete with security improvements to the 
under-secured weapons usable material in 2008, about 2 years 
ahead of schedule.
    While we have included a request for $24 million to address 
the under-secured nuclear warheads at the strategic rocket 
forces, NNSA has sought not to increase an overall budget for 
Russian MPCEA. The pace of the program is now primarily 
governed by Russia's ability to absorb assistance and by access 
arrangement, now that we have our funding.
    We are consolidating nuclear materials into Russia by 
reducing the number of locations where the material was stored 
and thereby reducing its vulnerability to theft and sabotage. 
By the end of 2003, we will have removed all weapons usable 
materials from 23 buildings, reducing the total number of 
buildings where there is such material from 75 to 52. Over time 
this number will decrease more.
    The NNSA will help to end the production of Russian nuclear 
material that could be used for nuclear weapons. Just a few 
weeks ago, Secretary Abraham and Minister Rumyantsev signed a 
key agreement that paved the way for the NNSA to work with 
Russia to shut down the three plutonium reactors that are still 
producing weapons-usable plutonium. These reactors, located at 
Seversk and Zheleznogorsk will be replaced with fossil fuel 
energy plants to meet energy needs of the local Russian 
communities.
    Additionally, our export control and second line of defense 
programs are minimizing the risk of illicit movement of 
radiological materials and WMD-related dual use commodities 
across international borders. Under a new initiative called 
Megaports, we will improve our ability to detect and stop 
illicit traffic--transfer of such materials in major transfer 
hubs around the world.
    Additionally, Mr. Chairman, a program that you started many 
years ago continues to be more and more effective every day. 
And that is our program to prevent the adverse migration of WMD 
scientific expertise from Russia. This program funnels former 
weapons scientists, their expertise into some commercially 
viable area and peaceful business ventures, and shrinks the 
complex from moving fences, from closing buildings, and for 
other alternate forms of employment.
    We have been continually improving our ability to detect 
proliferation of timely potential targets through our robust 
R&D detection program. Research and development of 
proliferation detection provides the United States timely 
detection of potential threats. Our R&D efforts are key to 
identifying threats at critical thoroughfares, detecting 
clandestine perverse proliferation activities and verifying 
treaty adherence.
    In summary, we in the NNSA are addressing the threat of 
proliferation of weapons of mass destruction in all dimensions. 
I am proud of the work we do and more proud of the men and 
women that spend weeks and months away from their family and 
the comforts of their home and work this tireless mission as 
fast as they can.
    Mr. Chairman and Senator Reid, also, I want to thank you 
for the years of support for these programs. With your help and 
your continued help, we are making this country a safer place. 
Thank you, sir.
    Senator Domenici. Thank you very much. I am going to submit 
a number of questions for you all to answer in perhaps 2 weeks, 
an adequate time.
    I just want to say how thrilled I am to listen to the 
testimony, to hear about the progress being made in some areas 
that just a few years ago I never thought we would ever be 
involved in. And to hear the progress in MOX and that the 
Russians are now going along with it, we are both going to be 
doing the same thing with reference to that program, is just 
incredible. I never thought we would be there. There is a 
substantial amount in the budget to proceed with dispatch in 
that regard.
    And, Mr. Ambassador, I note that much discussion today 
about NNSA and I just want to continue to urge that you move 
ahead wherever you can to make the transition total. And you 
are--you are moving as fast as you can toward making the NNSA 
the semi-autonomous agency contemplated by the statute, and 
Senator Reid complimented you today and complimented it today. 
I am pleased to hear that. And you know of my insistence that 
once we have that statute drawn, that you proceed to live with 
it and move in that direction as rapidly as you can. I note the 
testimony here today by NNSA on many fronts is very good, and I 
am very proud of it.
    A couple of observations. I wanted to say, Admiral, believe 
it or not, in another committee here in the Senate, the 
Authorizing Committee for Energy and Natural Resources, just 
today we approved as part of a new energy--comprehensive energy 
bill, the creation of a testbed for the United States to begin 
the development of a brand new nuclear reactor for civilian 
use, a model, with many new characteristics which will make 
even the latest of our light water reactors appear to be an 
ancient, ancient mariner. And that will have a 10-year program 
development which, hopefully, agencies as far as yours will 
participate in helping them move ahead rapidly. It is not 
intended to be a production reactor. It is intended to be a 
model of the kind that could be used by America or the world as 
the next generation of energy producers that would have many 
things that the current reactors do not have; passivity in 
terms of the physics of the instrument; many things that worry 
people, it is as safe as could be even today, even to make them 
better. That is going to be approved from what I can tell by 
the Congress as a new activity.
    That is pretty visionary and it is long overdue, but in the 
environment that you and I lived in the last 15 years, it is 
something we probably would never have expected to happen.
    Admiral Bowman. Yes, sir.
    Senator Domenici. In terms of the war we are in right now 
and the aftermath of it, I can just surmise, not knowing 
anything specifically, but I would think our President would be 
very excited about moving ahead rapidly in some of the areas 
that you were describing to us here today. It is obvious to me 
that he is going to be interested in taking an international 
lead in getting weapons of mass destruction more under control 
in the world. And I am sure that as he asks about that, he will 
find that within the Department of Energy many of the things 
that he is going to want to be doing, the groundwork is there 
for him to take the leadership in the world. I am very, very 
pleased about that.
    Dr. Beckner, I appreciate your testimony about NIF. I only 
hope you are right. It has been so wrong early on that I am 
almost tempted to call a separate hearing on NIF just to make 
sure that I get it straight and that they get it straight. But 
I did note your testimony and I will reread it.
    In summary, it is on schedule and as an expert and 
supervisor you were saying it is probably going to do what it 
was intended to do, is that correct?
    Dr. Beckner. That is correct.
    Senator Domenici. It is not just going to have these rays; 
they are going to do what they are supposed to do?
    Dr. Beckner. Yes, sir.
    Senator Domenici. They are going to be hot enough when we 
are finished to do it?
    Dr. Beckner. There is every reason to believe so at this 
time.
    Senator Domenici. As an aside, I was just going to ask: 
What do either of you think about the Z machine at Sandia? I 
assume we have another reading out of it. I imagine it is 
another rather incredible instrumentality out there.
    Dr. Beckner. It continues to perform very well.
    Senator Domenici. And what will it be used for?
    Dr. Beckner. Well, among other things, we are looking at 
whether we may be able to do some plutonium hydrodynamics 
experiments with it now. It remains to be seen if that will be 
possible, but that is one of the new possibilities. So we are 
encouraged by that.
    Senator Domenici. It certainly is an example of an 
achievement of high significance, so I assume it will be used 
for something great.
    Dr. Beckner. Certainly.
    Senator Domenici. Is that a fair assessment?
    Dr. Beckner. Of course. Yes, sir.
    Senator Domenici. Just because NIF is coming along does not 
mean we should throw it away. The reverse might have been true 
had we known about it.
    I cannot think of anything else, other than that I will 
submit questions. Did you want to make any other observations, 
Mr. Ambassador, having heard the testimony or heard my ad-
libbing up here, blithering so to speak?
    Ambassador Brooks. No, sir. Except to say, again, how much 
all of my colleagues and I appreciate both the committee's 
support and your strong personal support for these programs 
over the years.
    Senator Domenici. I think we are making some headway with 
the OMB. It is a good-looking budget for a change. We do need a 
little bit more money in some areas.
    We are--incidentally, Mr. Baker, on the issue of the 
Megaports and the machines, we had asked for an extra $150 
million for that program, knowing that we are ready to go and 
that there is some in the budget but not enough. It is still 
there waiting to be decided as one of the issues. If that 
happens, then we will not have to squeeze the budget so much. 
We will have received that money in a supplemental for some of 
the activity you are referring to.
    Mr. Baker. Thank you very much, sir.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Domenici. We are asking for more than is in the 
budget in our supplemental request.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Senator Pete V. Domenici
                    safeguards and security funding
    Question. The NNSA has a unique and challenging security 
environment because of the special nature of our mission and the many 
tons of material and weapons under our control. Security costs 
throughout the Department have been increasing for years, and 
particularly in the aftermath of September 11. And now that are country 
is at war with Iraq, the security condition has been raised to the 
higher ``orange level'' security condition. As a result of this, 
Senator Reid and I, with great help from Senator Stevens, last week led 
the fight here in the Senate to add significant sums to the fiscal year 
2003 supplemental to cover projected heightened security costs that the 
Department did not budget for. What threat level or security condition 
did you assume in developing the fiscal year 2004 budget request?
    Answer. The Department and the NNSA implement and maintain our 
Security Condition based upon the Homeland Security Advisory System 
developed by the Department of Homeland Security. For instance, our 
Security Condition 3 (SECON 3), which corresponds with Homeland 
Security ``Number 3 Elevated Condition (Yellow),'' was anticipated for 
routine day-to-day security operations during fiscal year 2004 and was 
used for budget development.
    Question. Will it be sufficient if the Department remains at 
Security Condition 3 for all of fiscal year 2004?
    Answer. Yes, that was the minimum baseline because of the present 
world-wide tension.
    Question. Are there investments we could make today that would 
dramatically reduce operational security costs over the next few years? 
If so, please provide specifics for the record.
    Answer. Yes, we believe that there are ways in which we can 
increase the efficiency of security operations, and we are working on 
them. For instance, we are working with other agencies striving to 
identify advanced technologies to maintain or improve security at 
reduced costs. Additionally, we will continue to review our physical 
and cyber protection measures by assessing vulnerabilities and 
protection strategies, and identifying common cost effective solutions 
for all NNSA sites. We are also working with the Department of Energy, 
Office of Security, to expedite security clearances for individuals 
who, when cleared, will reduce our guard force overtime costs. In 
addition, our sites continue to evaluate changes in their operations, 
such as consolidation of nuclear material and changes to security 
perimeters that can provide increased detection and assessment 
capabilities.
                overall budget for stockpile stewardship
    Question. Could you use additional resources in these areas if they 
were provided?
    Answer. The Stockpile Stewardship Program (SSP) is planned and 
budgeted for by the NNSA Planning, Programming, Budgeting, and 
Evaluation/Execution (PPBE) system, which establishes a formal, 
resource-constrained baseline for the SSP. Within the 5-year planning 
horizon of the Future-Years Nuclear Security Plan, workload has been 
prioritized to fit this resource-constrained baseline.
    Question. What are some of the highest priority tasks that you will 
not be able to achieve within the requested budget?
    Answer. Because of the way in which the NNSA budget is formulated, 
particularly the programming part of the PPBE system, SSP's highest-
priority needs are addressed in the fiscal year 2004 budget request.
                                tritium
    Question. The NNSA is preparing to spend over $500 million on a 
Tritium Extraction Facility over the next few years in South Carolina. 
The project is not going particularly well and last year its cost was 
re-estimated to increase 25 percent. What is the status of the Tritium 
Extraction Facility project?
    Answer. A new baseline for the cost and schedule of the Tritium 
Extraction Facility construction project (98-D-125) was approved by the 
Deputy Secretary on February 24, 2003, following independent management 
reviews. The total project cost is $506 million and the facility will 
be operational by July 2007. When measured against the new baseline, to 
date, the project is on schedule and spending is within the planned 
profile.
    Question. Given a possible change in tritium requirements as a 
result of the Moscow Treaty and other arms reductions, what is the date 
that we must resume tritium production? (Note: We don't need tritium 
until well beyond 2012 now.)
    Answer. Taking into account the Moscow Treaty, the NNSA plans to 
initiate tritium production in October 2003 by irradiating several 
hundred tritium-producing rods in the Tennessee Valley Authority Watts 
Bar reactor until March 2005. Those rods will then be stored until the 
Tritium Extraction Facility is ready to begin extraction operations in 
fiscal year 2007. The NNSA will continue to use the Watts Bar reactor 
to irradiate rods and to operate the Tritium Extraction Facility. There 
are no current plans to use either of the Sequoyah reactors in the 
foreseeable future.
    This low-tempo operating approach has advantages over a scenario 
that would delay the start of tritium production. First, this approach 
yields the earliest demonstration that tritium capabilities have been 
restored, which, in turn, enhances the confidence of NNSA and the 
Department of Defense, thus reducing the need for a 5-year tritium 
reserve. Reducing or eliminating the reserve would be a significant 
factor in reducing tritium production requirements. Second, the 
continuing low-tempo plan is the best way to ensure that tritium-
production experience is gained by maintaining the current government 
and commercial capability base, thus eliminating the need for costly 
reestablishment efforts in the future. This approach has been briefed 
to the Nuclear Weapons Council.
    We need tritium well before 2012. The lead time to produce tritium 
to meet currently projected requirements is 3 to 5 years. Under NNSA's 
current plan, the rate of tritium production will increase by fiscal 
year 2008 in order to ensure that minimum projected stockpile 
requirements are satisfied.
                             pit production
    Question. Ambassador Brooks or Dr. Beckner, we have had many tough 
conversations about the pit program over the years, and I have had to 
work hard to add tens of millions of dollars over the last several 
years to get it on track. As you know, I have always felt that our 
ability to demonstrate our ability to rebuild this very important 
weapons component was a key test of the stockpile stewardship program. 
I understand we have, or will soon achieve an important milestone of 
progress. Can you give the subcommittee an update on where we are on 
pit production?
    Answer. The Department of Energy/NNSA recognizes that manufacture 
and certification of a W88 pit is a pivotal element of the Stockpile 
Stewardship Program. As such, the NNSA has worked with Los Alamos 
National Laboratory (LANL) to projectize the pit manufacturing and 
certification campaign to ensure a disciplined process. The result of 
this effort is that Los Alamos has completed the manufacture of the 
first certifiable W88 replacement warhead pit in April 2003. This is 
the first step to establish a capability to manufacture 10 pits per 
year at Los Alamos in fiscal year 2007. Initially, Los Alamos will only 
manufacture W88 pits and processes to manufacture other pits will be 
developed at both Los Alamos and Lawrence Livermore National Laboratory 
in fiscal year 2009.
    Question. When do you expect you will be able to certify the first 
pit? (Note: Los Alamos produced its first ``certifiable pit'' this 
week. The internal milestone was to have it done by April 30.)
    Answer. Los Alamos National Laboratory (LANL) is currently 
scheduled to certify that W88 pits manufactured at LANL will meet W88 
warhead requirements in fiscal year 2007. This success-oriented fiscal 
year 2007 schedule requires that non-nuclear experiments and analysis 
remain on track. Because the W88 pit is scheduled to be certified 
without a nuclear test, a new level of precision in pit manufacturing 
and certification must be established. This precision is essential to 
ensure high confidence in stockpiled W88 warheads that would use a Los 
Alamos manufactured pit.
                             supercomputing
    Question. Ambassador Brooks or Dr. Beckner, as you are well aware, 
this subcommittee has raised a number of questions about the direction 
of the ASCI supercomputing program within NNSA. A particular point of 
concern is the way in which the platform acquisition strategy has been 
in a state of constant change over the last several years. The original 
ASCI acquisition schedule (circa 1995) proposed the acquisition of the 
following platforms at a projected total program cost of $1.7 billion 
from 1996 through 2001:
  --1 T--1997;
  --3 T--1998;
  --10 T--2000;
  --30 T--2001;
  --100 T--2003.
    Actual costs during that period were approximately $2.9 billion. 
Furthermore, the platform acquisition schedule continues to change. As 
of today, NNSA has acquired or is planning to acquire the following:
  --3 T--Red (SNL);
  --3 T--Blue Mountain (LANL);
  --3 T--Blue Pacific (LLNL);
  --12 T--White (LLNL);
  --20 T--Q (LANL);
  --40 T--Red Storm (Sandia);
  --100 T--Blue Jean (LLNL).
    Is the current ASCI approach the most cost-effective and efficient 
manner of achieving the desired capability and capacity?
    Answer. We believe that the current approach has provided the 
Stockpile Stewardship program with effective and efficient computing 
cycles. High-end computing solutions emerging over the past year, 
principally the advent of low-cost, high-performance Linux clusters, 
are providing us opportunities to obtain even more cost-effective 
machines for smaller jobs.
    All of the ASCI platforms have been acquired through competitive 
procurements, and in every case the machines have been brought in for 
the amount we have budgeted. We have met all of our planned schedules 
for the deployment of these computer platforms, except for the Q 
machine at Los Alamos, which was downsized due to Congressional budget 
reductions. The increase in the ASCI budget in the 2001 timeframe was 
not caused by a change in our platform acquisition strategy. Instead, 
increased program costs were caused by the merger of original ASCI with 
the old Stockpile Computing program and by the inclusion of several new 
program elements, including code verification and validation, distance 
computing, visualization, and University Alliances.
    Question. What are the mission requirements driving the ASCI 
program?
    Answer. The ASCI program, together with a vigorous experimental 
program, is an integral part of the Stockpile Stewardship program. ASCI 
provides the simulation capability, both software and hardware, to 
enable decision-making to support the existing and future nuclear 
weapons stockpile. Activities supported include annual assessment for 
all current stockpile systems, resolution of significant findings 
(SFIs), peer review and independent assessments, design and analysis of 
weapons-related experiments and requirements for facilities, resolution 
of technical issues affecting the production complex, nuclear test 
readiness, the ability to respond rapidly to new military or design 
requirements, and the development and validation of advanced physics 
models and codes for more fundamental understanding of weapons physics 
to reduce uncertainty in system margins and respond effectively to 
future issues or significant findings that may arise.
    Question. How much capacity is needed and when is it needed over 
the next 10 years?
    Answer. Our current acquisition strategy reflects the capacity 
needs given to us by our weapons designers. However, the early success 
of our code projects has increased demand for computer cycles beyond 
our initial projections. We are in the process of reevaluating our need 
for these cycles and extending our strategy through the end of the 
decade.
    Question. What is the maximum capability required in the top ASCI 
platform, and when, over the next 10 years?
    Answer. Since the inception of the ASCI program, the 2004 objective 
has been to produce a supercomputer operating environment capable of 
performing high-fidelity, three-dimensional weapons calculations at a 
resolution sufficient for confident prediction of weapon behavior. In 
1995, this appeared to be an ambitious and risky undertaking. ASCI 
progress to date shows that we will be able to perform such 
calculations at the rate of about one per month on a 100 Tera OPS 
machine. As the nuclear weapons stockpile continues to age, the 
challenges will grow ever more complex demanding greater computing 
capabilities and faster turnaround times. We estimate that a 1-2 Peta 
OPS (quadrillion operations per second) system will be required. We 
believe that machines of this size will be technically feasible and 
affordable near the end of the decade based on the continuing pace of 
technology advances.
    Question. Was the NNSA wise to abandon custom-designed chips and 
vector architecture for much cheaper, commodity chip-based, massively 
parallel systems?
    Answer. The designers and engineers at the weapons laboratories are 
using the ASCI machines to solve weapons related problems that only a 
few years ago would have been impossible to solve. We did not make a 
decision to abandon custom-designed chips and vector architectures. The 
only bids we received on our early procurements were for massively 
parallel machines based on commodity microprocessors. During this 
period, the single U.S. vendor of vector architectures was purchased by 
another company, and their vector machines were not available. Only 
within the past month or so has a U.S. vendor been capable of 
delivering a vector machine. We hope to see this architecture bid 
competitively in our future procurements, and we are eager to see 
whether there are applications for which this technology provides a 
cost-effective solution.
    Question. What level of customization is needed for the various 
government interests in supercomputing (e.g. weapons design, molecule 
modeling and simulation, cryptanalysis, bioinformatics, climate 
modeling)?
    Answer. We believe that computer architecture diversity is healthy 
for the United States scientific community and the Nation. Different 
scientific applications are unlikely to perform with high efficiency on 
a single architecture. Through our Advanced Architecture and 
Pathforward programs, we are currently supporting development of custom 
architectures that we believe will yield effective performance for 
weapons simulations and a large number of related scientific 
applications for the Department of Defense. We do not have enough 
experience with other applications, including cryptanalysis, 
bioinformatics, and climate modeling, to be able to predict what 
architectures are best suited to those problems.
    Question. How effective are the current or planned ASCI platforms 
in addressing the requirements of the program?
    Answer. Our platforms are performing well, albeit they are 
oversubscribed. They are being used to address relevant stockpile 
issues in closing Significant Finding Investigations, certifying 
weapons components, and supporting Stockpile Life Extensions and peer 
reviews.
    Question. Are there alternative architectures, interconnect 
technologies, systems software and tools, or other approaches that will 
result in improved performance for future ASCI platforms?
    Answer. The answer, as with all technology dependent programs, is 
yes. We have a long history of exploring, identifying and funding 
technologies that help improve the performance of future platforms. 
When better technologies become available, we would like to retain 
enough flexibility in our procurement strategy to be able to take 
advantage of them.
    Question. If so, can industry supply the required alternative 
architecture and software, i.e. is industry properly incentivized? Or, 
must government lead the development of alternatives?
    Answer. The computing industry is driven by market forces of which 
high end computing represents a very small share. Nevertheless, our 
investments have an impact out of proportion to our market share. We 
have been extremely successful with our Pathforward program, which has 
benefited the broader high-end computing community and is acknowledged 
as a successful approach to incentivizing industry. Although the 
funding for this program element is not as robust as in past years, 
ASCI continues to make investments in Pathforward with industry 
partners.
    Question. As it relates to the ASCI mission requirements, what is 
the cost/benefit of investing more heavily in capacity now, and 
deferring acquisition of capability machines, thereby taking advantage 
of the falling price/teraflop?
    Answer. Our procurement strategy has provided cost-effective 
supercomputers to our weapons designers and code teams. We are 
investing heavily in the development of 3-D, high-fidelity physics 
applications, which are addressing urgent stockpile issues. Effective 
use of these applications by weapons designers will be impossible 
without our largest platforms, and delays will severely limit our 
ability to address these issues promptly.
                          modern pit facility
    Question. Ambassador Brooks or Dr. Beckner, the NNSA is planning on 
building a modern pit production facility that would come on line in 
2019. Dr. John Foster has suggested that the NNSA should have a 
significantly more flexible and accelerated approach that would allow 
you to have a modular facility on line as early as 2010. Will you 
update us on this project?
    Answer. The Department has not made a final decision to proceed 
with a Modern Pit Facility to ensure long-term pit production to meet 
the needs of the United States nuclear stockpile. However, a Critical 
Decision-0 (CD-0) on mission need relative to a Modern Pit Facility 
(MPF) was made in May 2002. This decision enabled the start of the 
National Environmental Policy Act (NEPA) process, including preparation 
of an Environmental Impact Statement (EIS) and conceptual design of a 
MPF in fiscal year 2003. A preferred site will be announced in that 
document. The Department plans to issue a Record of Decision (ROD) in 
2004. The ROD will be based on the MPF Environmental Impact Statement 
and other factors such as cost and technical considerations.
    Question. How much more would it cost if you used a flexible/
modular approach suggested by Dr. Foster?
    Answer. We are currently utilizing a modular approach and are 
developing a range of costs relative to that approach. If it is 
determined that it is necessary to accelerate the project, the costs 
will likely rise in the early years of the project.
    Question. Are you still planning on making a siting decision as 
early as December of this year?
    Answer. We are committed to a Record of Decision milestone of April 
2004. However, our goal is to arrive at the Record of Decision earlier.
                facilities and infrastructure initiative
    Question. Ambassador Brooks or Dr. Beckner, 2 years ago I was very 
pleased to work with Chairman Reid in getting the Facilities and 
Infrastructure rebuilding effort underway with $200 million. For fiscal 
year 2004, you have requested a total of $265 million. The state of the 
complex had too long been a neglected issue. But last year, this 
committee's focus on infrastructure was reaffirmed in the Nuclear 
Posture Review--which concluded that we must have a flexible and 
responsive nuclear weapons enterprise in order to meet the challenges 
of an uncertain and unpredictable threat environment. However, I am 
still concerned about two points. Past evidence put before this 
committee indicated we needed to be spending an additional $300 to $500 
million per year for the next 15 or so years to refurbish the weapons 
complex. Why have you requested significantly less?
    Answer. The fiscal year 2004 budget request of $265 million is 
substantial and will support some 150 Recapitalization, Facility 
Planning, and Facility Disposition projects that will provide capital 
renewal and sustainability, with an emphasis on deferred maintenance 
reduction. Facility Disposition projects will reduce the footprint of 
the complex by approximately 325,000 gross square feet. From the turn 
of the century, the fragile condition of the nuclear weapons complex 
has been described in a series of internal and external assessments. 
The Foster Panel, Chiles Report, the DOE Inspector General, the Defense 
Department, and the NNSA comprise the reports in the series. 
Independently, each concluded that the complex is old, with half of the 
facilities 40 years or older; and, to restore the complex to an 
acceptable condition, substantial additional annual funding was needed, 
on the order of some $300 to $500 million for about a decade. In 
addition, all agreed that although money is important and needed, 
strong structured management, absent in the past, is as important.
    Two components dominate the NNSA's corporate management approach--
securing the appropriate level of funding, and rigorous management. 
Current funding levels meet NNSA's planned facility requirements and 
are approved by the OMB, and most importantly, the Congress. In 
addition, improved management of the infrastructure is developed and 
implemented through integrated management tools that include the Ten-
Year Comprehensive Site Plans (TYCSP), Project Execution Plans, a well-
structured Planning, Programming, Budget, and Evaluation process, upon 
which is determined the longer view of program needs described in 
NNSA's Future-Years Nuclear Security Program (FYNSP). The request for 
resources shown in the FYNSP seeks annual incremental increases of 
about $50 million building to $500 million in fiscal year 2008. The 
NNSA believes that growth of the Facilities and Infrastructure 
Recapitalization Program is building in accordance with the changing 
culture regarding improved facilities management and the ability to 
successfully execute the funds provided. The program has 2 years of 
full funding experience, is proceeding according to plan, and has a 
number of impressive successes to its credit.
    Question. Secondly, if we are ever going to effectively reduce the 
maintenance backlog, we must stop contributing to the backlog. My 
review of the budget requests for regular maintenance of facilities is 
still below what is needed. So while we are trying to reduce the 
maintenance backlog through the F&I program, we are adding to it by 
under funding regular maintenance. Do you agree with my contention? 
Please respond.
    Answer. The Readiness in Technical Base and Facilities (RTBF) 
Operation of Facilities budget identified in the Future Year Nuclear 
Security Plan (FYNSP) in conjunction with the Facility Infrastructure 
Recapitalization Program (FIRP) budget is adequate to maintain the 
complex in a safe, secure, and compliant status. The President's fiscal 
year 2004 request for RTBF proposes an overall increase of 7.4 percent 
and a 4.2 percent increase for Operations of Facilities. The RTBF 
program is committed to ensuring its facilities have responsible 
maintenance programs and adequate funding to support the mission. NNSA 
has established a goal of stabilizing (i.e., zero growth) the program 
facility deferred maintenance backlog by fiscal year 2005 and to reduce 
it to industry standard levels (or better) by fiscal year 2009. RTBF 
will fund the complex at an adequate level; this will enable (FIRP) to 
execute its deferred maintenance reduction responsibilities and help 
recapitalize the complex.
    Historically, the maintenance backlog has not been measured 
consistently through the application of consistent direction across the 
complex. In fiscal year 2003, NNSA has taken action to assure 
consistent application of standardized definitions to create a 
``corporate'' business process and allow the establishment of a 
baseline. Until this was done, it was not possible to understand the 
magnitude of what is needed. In fiscal year 2004 and beyond, NNSA will 
track funding of maintenance and measure the maintenance backlog to 
assure that actual progress is being made. With these tools and 
measures in place, NNSA can and will ensure that maintenance is not 
under funded.
    Question. Will you update the committee on the Facilities and 
Infrastructure Initiative?
    Answer. The effort to restore the nuclear weapons complex began as 
the Facilities and Infrastructure (F&I) Initiative. Upon congressional 
authorization, the F&I Initiative became the Facilities and 
Infrastructure Recapitalization Program. The physical infrastructure of 
the nuclear weapons program is managed by NNSA within a corporate 
facilities management framework, which is designed to stabilize the 
deferred maintenance backlog, improve the complex through facility 
upgrade and new construction, while at the same time reducing the 
footprint of our facilities through elimination of excess facilities, 
yielding an operationally more economical, revitalized enterprise. The 
general NNSA approach is that daily operations and maintenance to 
ensure the availability of facilities and infrastructure essential to 
the Stockpile Stewardship mission are principally funded within the 
Readiness in the Technical Base and Facilities (RTBF) program. Capital 
renewal and sustainability are the focus of the Facilities and 
Infrastructure Recapitalization Program. Capital acquisition (line 
items) is managed across several program areas, in accordance with an 
Integrated Construction Program Plan.
    The mission of the Facilities and Infrastructure Recapitalization 
Program (FIRP) is to restore, rebuild, and revitalize the physical 
infrastructure of the nuclear weapons complex. The program applies new 
direct appropriations to address an integrated, prioritized series of 
repair and infrastructure projects that will significantly increase the 
operational efficiency and effectiveness of the NNSA weapons complex 
sites. The FIRP mission is an integral component of the NNSA Strategic 
Goal to provide state-of-the-art facilities and infrastructure 
supported by advanced scientific and technical tools to meet 
operational and mission requirements. The Nuclear Posture Review 
discussed the need to revitalize the nuclear weapons complex as the 
third leg of the New Triad of our national nuclear strategy. The 
Facilities and Infrastructure Recapitalization Program was established 
specifically to address these concerns and assure that the NNSA 
continues to meet its major performance objectives of ensuring the 
vitality and readiness of the national security enterprise.
    Base maintenance and infrastructure efforts at NNSA sites are 
primarily funded within Readiness in Technical Base and Facilities 
(RTBF)/Operations of Facilities and through site overhead allocations. 
These efforts focus on ensuring that facilities necessary for immediate 
programmatic workload activities are maintained sufficiently to support 
that workload. FIRP addresses the additional sustained investments 
above this base for deferred maintenance and the infrastructure that 
are needed to extend facility lifetimes, reduce the risk of unplanned 
system and equipment failures, increase operational efficiency and 
effectiveness, and allow for recapitalization of aging facility 
systems. FIRP also manages utility line items. This capital renewal and 
sustainability focus is the core mission of the Facilities and 
Infrastructure Recapitalization Program.
    A major metric for the recovery of the facilities and 
infrastructure of the nuclear weapons complex is the reduction of the 
NNSA's deferred maintenance, currently in excess of a billion dollars. 
The NNSA has committed to stabilize its deferred maintenance by the end 
of fiscal year 2005. Additionally, by the end of fiscal year 2009 the 
NNSA has committed to reduce deferred maintenance to within industry 
standards and return facility conditions for mission essential 
facilities and infrastructure to an assessment level of good to 
excellent (deferred maintenance replacement plant value less than 5 
percent). FIRP will provide the major funding, and management effort, 
to achieve this reduction.
    A separate but vital sub-program is Facility Disposition. This 
congressionally directed effort requires that at least $50 million of 
the FIRP funding be used each year to dispose of excess facilities that 
will provide the greatest impact on reducing long-term costs and risk. 
In the near term, this has meant focusing on footprint reduction. The 
facility disposition effort not only frees high value real estate to 
enable the modernization of the complex, but also provides NNSA the 
foundation to manage the entire range of its excess facilities 
portfolio. The NNSA is committed to reduce the nuclear weapons complex 
footprint by 3 million gross square feet of excess space by 2009. FIRP 
will provide the major funding and management effort to achieve this 
reduction.
    Embedded within the FIRP program management is the NNSA commitment 
to congress to demonstrate credible deliverables, efficient management, 
and fiscal accountability. The program's funding significantly ramps-up 
over the next several years until it reaches the level determined by 
the NNSA, and external reviews, required to restore the nuclear weapons 
complex and ultimately return the condition of the complex to industry 
standards by fiscal year 2009.
    The NNSA is committed to responsible and accountable facility 
management processes, including budgetary ones, so that the condition 
of NNSA facilities and infrastructure is maintained equal to or better 
than industry standards. This integrated corporate long-term goal, 
encompassing improved facilities management and significant additional 
funding, will ensure the recovery and subsequent sustainment of the 
nuclear weapons complex.
    Question. What have you accomplished, and where do we need to go in 
the future?
    Answer. The backdrop for the restoration of the weapons complex is 
set in the following remarks/commitments made by General Gordon to the 
Congress:
  --Infrastructure is aging, in some cases failing. (HASC Oversight 
        Panel--11 July 2000)
  --Cannot let our infrastructure decay . . . it's potentially 
        dangerous, it sends wrong signal . . . (HASC Oversight Panel--
        11 July 2000)
  --Are we under invested in facilities? . . . today I am positive of 
        the answer: we are under invested by a lot. (Senate Water and 
        Energy Subcommittee, Senate Appropriations Committee--13 March 
        2001)
  --The facilities that underpin the American nuclear deterrent require 
        immediate attention, on the order of $500 million a year for at 
        least the next 10 years. (Senate Water and Energy Subcommittee, 
        Senate Appropriations Committee--13 March 2001).
    General Gordon's early compelling argument, and successive 
semiannual status reports to the authorization and appropriations 
committees, prompted Congress to authorize $8.7 million in fiscal year 
2001, $197 million in fiscal year 2002, and $243 million in fiscal year 
2003 for the Facilities and Infrastructure Recapitalization Program to 
begin the restoration of the nuclear enterprise. With 2 years of full 
funding, the significant achievements of the Facility and 
Infrastructure Recapitalization Program (FIRP) are as follows:
  --Established advocacy for facilities--the third leg of the New Triad 
        of our national nuclear strategy
  --Defined corporate facilities management, as an embedded concept in 
        NNSA strategy, planning, facility restoration, 
        recapitalization, and revitalization of the nuclear enterprise
  --Introduced commonality and standardization regarding facility 
        management and accountability
  --Championed a corporate facility management data base (FIMS)
  --Introduced a graded approach to life-cycle facility management
  --Established an approach to facility budgeting
  --Established a ``first time ever'' complex-wide prioritized project 
        listing
  --Developed criteria for priority approach to sifting requirements on 
        a ``worst first'' basis
  --Embedded comprehensive long-term planning (Ten-Year Comprehensive 
        Site Plan (TYCSP))
  --Established formal Federal review process
  --Limned facility stewardship:
    --Established facility complex baseline conditions
    --Built performance measures to track conditions
    --Developed a prioritization and integration process for project 
            selection
    --Established desired steady state goal for complex-wide facility 
            condition
  --Established fiscal visibility and accountability:
    --Established financial visibility--both direct and indirect
    --Established financial benchmarks
    --Developed and promulgated Federal facility budget guidance
    --Instituted institutional general plant projects for laboratories
    --Established the recapitalization program controlled by work 
            authorizations and baseline change control
  --Instituted procedural improvements:
    --Periodic and independent reviews of program
    --Performance measures/performance evaluation management plan/
            laboratory appraisal plan
    --Developing return on investment strategies/best practices such as 
            the multi-site--Roofing Repair Pilot Program
    --Established strategic professional linkages--National Research 
            Council's Federal Facilities Council, civilian industry's 
            APPA; and the Energy Facilities Contract Group (EFCOG) as 
            well as within the DOE
  --Conceived the FIRP in three parts--recapitalization, facility 
        planning, and facility disposition
  --Established FIRP performance indicators for reduction of the 
        backlog of deferred maintenance and reduction of the complex's 
        facility footprint
  --Established annual targets for achieving performance goals
  --Managing FIRP with fiscal responsibility within FYNSP constraints
  --Defined achievable targets for program execution in fiscal year 
        2002 and fiscal year 2003--$440 million
  --Managing projects in accordance with a graded approach to meeting 
        DOE Order 413.3
  --Faithfully adhere to the ``what and how'' approach to headquarter 
        and field responsibilities
  --FIRP is executed through Federal field validation for baseline 
        credibility, fiscal and legal accountability
  --FIRP requires identification of site-specific Stockpile Stewardship 
        Program supporting projects
  --FIRP is managing to the parameters of a construction year--
        obviously different than the fiscal year cycle
  --Receiving wide-spread recognition for performance of Federal and 
        M&O staffs--congressional report language
  --Congress continues to fund at growth levels established in Calendar 
        Year 2000.
    With regard to the future, the formula remains, leadership support 
within the NNSA, measurable results; Departmental support, OMB support, 
and most importantly, continued support of the Congress. Corporate 
facilities management is embedded at each of the eight sites, 
performance measures on a par with industry standards management of the 
backlog of deferred maintenance projects is occurring, the footprint is 
shrinking ahead of plan, and the NNSA is performing within its means. 
NNSA is positioned to be able to adequately maintain the vital ``Third 
Leg of the New Triad'' of the Nation's nuclear posture.
                        nonproliferation budget
    Question. To Ambassador Brooks or Mr. Baker: I am pleased to see 
the broad and specific goals of your nonproliferation program continue 
to receive strong support from the Administration. Overall, I believe 
you have a pretty good budget for fiscal year 2004. How would you 
characterize your progress in the Nuclear Nonproliferation programs?
    Answer. We are making good progress toward achieving our goals and 
objectives. We have had many successes in our programs, have 
accelerated our efforts in protecting nuclear materials, and are now 
aggressively ramping up several new cooperative programs and 
initiatives, as follows:
  --On March 12, we signed agreements with the Russian Federation to 
        initiate our work on the Elimination of Weapons-Grade Plutonium 
        Production in Russia. This will allow us to begin work with our 
        Russian partners to close down the last three operating 
        plutonium production reactors in Russia.
  --In a major development in reciprocal U.S. and Russian plutonium 
        disposition efforts, the Russians have recently agreed to the 
        U.S. design for their mixed oxide (MOX) fuel fabrication 
        facilities. Construction should begin next year.
  --We have recently begun cooperative work with Russia's Strategic 
        Rocket Forces in order to improve the security of their nuclear 
        warheads and we are providing security upgrades at two sites to 
        which the Russian Ministry of Defense has permitted DOE access. 
        We anticipate work on additional proposed sites in the future.
  --We are working toward the goal of completing the materials 
        protection, control and accounting (MPC&A) upgrades by 2008 at 
        which point we will enter a sustainability phase and transition 
        to Russian ownership of the programs.
  --We have initiated a project to equip foreign seaports with 
        radiological and nuclear detection systems to pre-screen 
        containers destined for U.S. ports.
  --In our efforts to engage Russian weapons scientists in commercial 
        activities, our Russian Transition Initiative program has 
        secured over $90 million in private venture capital, in 
        addition to industry matching funds that bring in $3 for every 
        $2 invested by the U.S. Government.
  --We are supporting U.S. Government participation in the G-8 Global 
        Partnership that involves the United States committing $10 
        billion of nonproliferation funds to be matched by $10 billion 
        from the international community over the next 10 years.
    These are just some of the programs and projects we are working on.
    Question. How many sites did you protect last year compared to 
previous years?
    Answer. We expect to significantly increase the number of sites 
protected under more extensive or comprehensive MPC&A upgrades than in 
previous years. We will complete comprehensive upgrades at an 
additional 8 sites in fiscal year 2003 verses 4 sites in fiscal year 
2002, raising the total number of sites protected with comprehensive 
upgrades to 48. In fiscal year 2004, we will complete comprehensive 
upgrades at an additional 7 sites raising the total number of fully 
protected sites to 55.
    Question. What, if anything, is needed to ensure the success of 
this program?
    Answer. We believe that the strategies we are pursuing within our 
panoply of programs fully supported by the President and reflecting the 
outcome of the recent review of nonproliferation programs by the 
National Security Council are significantly reducing the WMD 
proliferation threat to the United States. However, I would like to 
stress the importance of the full and continued congressional funding 
for the Department's programs. I am grateful for the cooperation from 
Congress and look forward to continuing that cooperation as we advance 
our shared national security objectives. It is also essential that we 
enjoy full and complete cooperation from our international partners, 
such as Russia, in breaking down bureaucratic barriers to program 
implementation and take further steps to accelerate our efforts there. 
I also believe that success in working with our G-8 partners to advance 
our Global Partnership objectives will be essential to future success.
    NNSA's nonproliferation mission and responsibilities set forth in 
the National Nuclear Security Administration Act are broad enough to 
encompass our conduct of nuclear nonproliferation activities outside of 
Russia. However, we are seeking to clarify in the National Defense 
Authorization Act for fiscal year 2004 that NNSA has the requisite 
authority to conduct its International Nuclear Materials Protection and 
Control Program not only in the former Soviet Union but in other 
countries where the risks of proliferation of weapons of mass 
destruction, materials, and technology also threaten the security of 
the United States.
                     materials protection in russia
    Question. Ambassador Brooks or Mr. Baker, I had an opportunity to 
visit yesterday with Minister Alexander Rumyantsev, the Russian 
Minister of Atomic Energy. We talked about many of our nuclear 
nonproliferation programs of common interest. I reassured him of my 
strong support for the programs, but I also raised with him my concerns 
that we were still not making progress as fast as we should and are not 
getting the access necessary to ensure our tax dollars are being 
properly spent. But he raised another issue of concern--that the legal 
agreements that form the basis of our cooperative efforts would expire 
this summer, and that our governments were having trouble renegotiating 
the agreements. That is potentially an issue of great concern. Will you 
comment first on the access issue--are we getting what we need to 
provide security upgrades in Russian production facilities storing the 
greatest amounts of nuclear material?
    Answer. Our efforts to secure materials in Russia are proceeding 
well. We have made significant progress with the Russian Ministry of 
Atomic Energy (MinAtom), especially at ``civilian'' facilities with 
less stringent access restrictions imposed by MinAtom. In fact, we are 
finishing work at the first large MinAtom fuel processing facility, the 
Luch facility, this spring. Luch was the site of the attempted theft of 
HEU by a facility insider several years ago. We expect to complete at 
least 2 additional large MinAtom facilities next year (Novisibirsk & 
IPPE in Obninsk). Consequently, this part of our program is in the 
process of downsizing as work is completed.
    Work at sensitive MinAtom facilities continues, but the pace is set 
mostly by the time it takes to overcome access restrictions more than 
anything else. We are making progress at these sites--contracts for 
upgrades have and will continue to be signed at places like Tomsk, 
Krasnoyarsk-26, Mayak, and C-70 as the year progresses. We are 
achieving concrete results with the MOD as well. Last year we completed 
negotiations for upgrades at the majority of the remaining sites in the 
RF Navy believed to require comprehensive upgrades. This is another 
area of our program that will be scaling down in the next couple of 
years--assuming the RF Navy does not introduce additional sites where 
upgrades are justified. However, our work with the Strategic Rocket 
Forces (SRF) is just underway, and we should be seeing increased 
activity in this area over the next few years.
    We will continue to focus our efforts on providing upgrades to 
sites containing materials of concern that we have access to in order 
to reduce the threat as quickly as possible, while we negotiate access 
to the remaining weapons sites.
    In our Nuclear Cities Initiative program, we have had no problems 
with access since signing an access arrangements document last year. 
The Russian side does still have some difficulty figuring out how it 
will provide access to foreign companies that want to own land and 
property in Russia. That has made it a little more difficult than we 
would like getting Western businesses to invest unreservedly in Russia, 
but the regional and municipal authorities, and MinAtom itself, are 
working to develop various proposals that will satisfy both the Western 
private sector and Russian security requirements.
    Question. Also, what are you doing to ensure this important work is 
not stopped because of a failure to get proper legal agreements?
    Answer. The bilateral agreements that govern our MPC&A activities 
do not expire until 2006. These include the U.S/Russian Cooperative 
Threat Reduction umbrella agreement and the 1999 Agreement. We will 
start the renegotiation process well in advance of this deadline. In 
the case of the NCI Government-to-Government Agreement, which is set to 
expire at the end of this September, we have received a letter from 
Minister Rumyantsev requesting extension of the Agreement for another 
5-year term, without making any changes to the current text. However, 
the Administration is reviewing the liability protection in this 
agreement, which may impact our ability to extend it. We are working 
with the Russians and our interagency colleagues to identify ways to 
solve this problem.
                mpc&a outside of the former soviet union
    Question. Ambassador Brooks or Mr. Baker, historically the focus of 
our nonproliferation programs has been almost exclusively on the former 
Soviet Union. And Russia certainly remains the largest source of 
nuclear materials which could become potential threats to our security. 
But the events of the last 2 years have certainly shown us threats 
exist all over the globe. What nonproliferation problems and 
opportunities do you see outside the former Soviet Union?
    Answer. While true that our programs focus on Russia, it's also 
true that for many years we have engaged in a variety of 
nonproliferation efforts around the world. Those nonproliferation 
efforts continue today and have in fact expanded since September 11th. 
As you correctly point out, there are several countries outside the 
former Soviet Union, for instance in South Asia, that raise important 
nonproliferation issues. In that context, there may be opportunities 
for mutually beneficial exchanges that could lead to enhancements in 
the security of nuclear weapons, weapons-usable nuclear material, 
radiological material, and the prevention of illicit nuclear/
radiological material from crossing borders. In some key cases, we have 
not fully engaged these countries because they remain outside the Non-
Proliferation Treaty and we are therefore constrained somewhat by law 
and policy with respect to how we can assist them.
    Question. What do you need in terms of money or agreements in order 
to begin addressing those threats?
    Answer. The recent fiscal year 2003 Supplemental Appropriations 
included $15 million for nonproliferation work outside of the former 
Soviet Union. That should be sufficient to continue our longstanding 
engagement with these countries. However, if initial efforts in areas 
such as South Asia lead to large programs of direct assistance in these 
areas, additional resources would be required. We will be in a better 
position to identify the required funding level once the scope of such 
work has been more clearly defined and the U.S. Government has 
completed its evaluation of what types of security assistance are 
desirable and permissible.
    NNSA's nonproliferation mission and responsibilities set forth in 
the National Nuclear Security Administration Act are broad enough to 
encompass our conduct of nuclear nonproliferation activities outside of 
the FSU. However, we are seeking to clarify by means of the fiscal year 
2004 National Defense Authorization Act that NNSA has the requisite 
authority to conduct its International Nuclear Materials Protection and 
Control Program not only in the states that resulted from the former 
Soviet Union but in other countries where the risks of proliferation of 
weapons of mass destruction, materials, and technology threaten the 
security of the United States.
    Beyond that, the legal requirements, like the funding requirements, 
will very much depend on the attributes of the country in question and 
the scope of work proposed. We will certainly keep you informed as 
these activities proceed.
    Question. I remember that in Russia, early progress was 
accomplished on a scientist-to-scientist basis through the so-called 
``lab-to-lab'' approach. Is the original ``lab-to-lab'' approach being 
revisited to encourage progress in some of the countries that may 
present threats?
    Answer. Yes, in many countries we have found direct exchanges 
between technical experts to be a valuable tool of engagement. 
Specifically with respect to countries outside the former Soviet Union, 
we will use this approach in combination with other vehicles to engage 
on sensitive nonproliferation issues.
                 russian plutonium disposition program
    Question. Ambassador Brooks or Mr. Baker, I am pleased to see us on 
the cusp of constructing facilities in the United States and Russia to 
finally carry out the disposition of up to 34 metric tons of plutonium 
in each of our two countries. However, I remain concerned about the 
schedule and our ability to begin construction in Russia in fiscal year 
2004. I don't say that because you are not doing everything you can, I 
just say it because the job is very hard. Among the obstacles still out 
there are securing all of the $1 billion in international financing for 
construction, getting the right legal agreements in place, and finding 
another $1 billion to finance the operations of the MOX plant. How are 
we coming on those issues?
    Answer. For the construction phase of the Russian plutonium 
disposition program, pledges thus far total $800 million, leaving a 
$200-million shortfall. We believe that the remainder of funding 
necessary for construction will be obtained shortly. As for the 
operations phase of the program, there are a number of non-government 
funding sources that could be used for this purpose, including receipts 
from the exports of Russian MOX fuel and displaced uranium fuel, cross-
subsidies from other Russian programs and Russian domestic MOX fuel 
sales. In many cases, these are heavily dependent upon future 
developments in the Russian and international nuclear industries and 
markets, which are not predictable at the present time. Nonetheless, we 
believe that a combination of these revenue sources could be used to 
fund some or all of the operations phase of the disposition program.
    In addition to obtaining funding, we have recently made significant 
progress in developing a multilateral structure that allows for 
bilateral U.S.-Russian program management. We are also working to adapt 
the detailed design of the U.S. facility for use in Russia and to reach 
agreement on licensing arrangements that will permit Russia to use 
Cogema MOX technology for its MOX facility. Once the key details of 
these efforts are decided, we can begin to set up the necessary legal 
implementing documents.
    Question. What confidence do you have that we can stay on schedule?
    Answer. We expect to begin construction of both the U.S. and 
Russian MOX facilities in fiscal year 2004. Russia's recent 
announcement to use the design of the U.S. MOX facility to dispose of 
34 metric tons of its surplus weapons plutonium will greatly accelerate 
the Russian program. However, the requirement to maintain parallel 
progress between the two programs may cause the U.S. program to be 
delayed slightly in order to allow the Russian program to catch up.
                     russian transition initiatives
    Question. Ambassador Brooks or Mr. Baker, on several occasions the 
Administration indicated its strong support for programs designed to 
employ scientists in the Former Soviet Union. The Initiatives for 
Proliferation Prevention (IPP) has enjoyed success, but the Nuclear 
Cities Initiative has had more difficulty in producing results, 
although it has had some. In the environment of a huge budget increase 
for nonproliferation, the budget request for these Russian Transition 
Initiatives remains flat at about $40 million. Should I conclude from 
that request that you do not see as much opportunity in those programs 
as some of the others focused on materials?
    Answer. No, we still see a great deal of opportunity and need in 
the work of these programs focused on the human component of our 
proliferation concerns, and believe that these scientist engagement 
programs have a great deal of importance for our national security. At 
the end of World War II, the U.S. Government was concerned about German 
missile and nuclear expertise falling into the wrong hands, and we made 
sure those German scientists did not trade their information on the 
open market. Similarly, today we must make sure that the enormous 
scientific and technical expertise left over from the Cold War in the 
former Soviet Union does not find its way to rogue states or terrorist 
groups. I believe that our requested budget levels are sufficient to 
respond to the risk of adverse migration of this scientific and 
technical expertise to terrorists or rogue states--especially 
considering that these programs are highly leveraged by private sector 
investment and matching contributions that meet or exceed U.S. 
Government funding. But having performed a relative risk assessment of 
adverse migration versus the magnitude of the threat posed by unsecured 
materials, I believe the Administration has made some reasonable 
decisions about the relative distribution of funding requests.
    Question. Is the Administration not as concerned about ``brain 
drain'' issues as it was several years ago?
    Answer. Since September 11th, the Administration is even more 
concerned about nuclear know-how falling into the wrong hands. In 
recognition of that threat, the President requested and received a 
supplemental of $15 million in fiscal year 2002 from Congress for these 
programs. So ``brain drain'' from the former Soviet Union remains a 
strong concern. However, since the early and mid-1990's when some of 
these programs were begun, conditions have improved somewhat. The 
Russian economy has stabilized and we are not seeing the run-away 
inflation that stripped away life savings. The Russian Government is 
paying nuclear scientists more regularly. Also, the Russian economy is 
beginning to generate some private sector opportunities for these 
scientists. Our programs have adapted to these changes by focusing less 
on supplementing scientists' meager paychecks and more on seeking 
sustainable economic transformation and downsizing of the Russian 
weapons complex, taking advantage of market opportunities through 
technology commercialization.
          role of nnsa labs in department of homeland security
    Question. Ambassador Brooks, approximately $140 million in R&D 
activities at the labs has been transferred over to the Department of 
Homeland Security to manage. As you know, I wrote several provisions 
into the Act creating the Department of Homeland Security that will 
ensure our national labs continue to bring their expertise to bear on 
many problems facing us in the war on terrorism. Will you please 
comment on how the transition of those programs is going?
    Answer. The transition is progressing well. Of the approximately 
$150 million in functional transfers to the Department of Homeland 
Security (DHS), approximately $85 million of these programmatic 
activities were from the NNSA, $79 million from our Nonproliferation 
and Verification R&D program and $6 million from the nuclear 
assessments program. NNSA also transferred Program Direction funding 
associated with these activities in the amount of $3.7 million. 
Nonproliferation and Verification R&D program management is working 
closely with their DHS counterparts to assure a smooth transition of 
the R&D activities towards countering nuclear smuggling and preventing 
or countering the effects of biological or chemical terrorism. To 
facilitate this transition, DHS has asked NNSA to participate in 
execution of these programs through fiscal year 2003. In addition, 
particular activities in which we continue to have a strong role are 
the test bed for nuclear detection technology in cooperation with the 
New York/New Jersey Port Authority and the establishment of the 
BioWatch initiative in 30 cities across the country. We are working 
closely with DHS personnel as they assume management of these programs, 
so that the high quality work of the national laboratories continues to 
serve the national need, without any loss of capability or momentum.
    Question. Do you foresee any problems?
    Answer. No, but I do feel that it will be important for NNSA and 
DHS to work together to complement each others' missions. That is, NNSA 
will continue to work on development of technology for national 
security missions, some of which will have application to homeland 
security problems. NNSA's Nonproliferation and Verification R&D program 
will continue to focus on strategic R&D in support of WMD 
nonproliferation missions, while DHS focuses on the more immediate-
operational needs of homeland security agencies, including the U.S. 
Customs Service, the Coast Guard, and the Transportation Security 
Administration. NNSA can complement the near-term development and 
application of, for example, radiation detection technology by DHS, 
with the strategic, ``leap-ahead'' research necessary to sustain 
national security capabilities, drawing on the strengths of the 
national laboratories and the NNSA responsibility for nuclear weapons 
and materials.
    Question. Do you believe counter-terrorism R&D will continue to be 
a growing part of the labs missions?
    Answer. Yes, the labs' research in nuclear, chemical, and 
biological science and technology will continue to be important to 
national security programs and provides the core competency to address 
counter-terrorism concerns. NNSA will continue to maintain a strong R&D 
program in nuclear technologies, which is of paramount importance to 
both the weapons and nonproliferation missions, and the NNSA 
Nonproliferation and Verification R&D program will continue research on 
methods to detect activities associated with proliferation of all types 
of weapons of mass destruction. However, with the transfer to the DHS 
of the R&D for the chem-bio domestic preparedness mission that 
department must undertake the support of the science and technology 
base in those disciplines. NNSA will no longer be funded to sustain the 
required capabilities in those areas.
                   nasa's nuclear systems initiative
    Question. Admiral Bowman, NASA is proceeding with its ``nuclear 
systems initiative,'' and I know they remain interested in you managing 
all or parts of that program. This initiative will develop new 
radioisotope power systems for on-board electric power on future space 
platforms, and it will also conduct research and development on nuclear 
electric propulsion systems that would allow future space craft to 
speed throughout the outer reaches of the solar system. Of course, much 
of the historic capability in nuclear space systems resides at other 
DOE labs outside of your program. What is your view of this effort and 
the role for Naval Reactors?
    Answer. First, I should make clear that we are not lobbying for 
this work; our hands are already full with current and planned Naval 
Nuclear Propulsion Program work. We have no particular expertise in 
radioisotope power systems and have no interest in managing this aspect 
of the nuclear space initiative. However, NASA has indicated that they 
are interested in NR taking the lead for reactor development in the 
Nuclear Systems Initiative (NSI), including the Jupiter Icy Moons 
Orbiter (JIMO). My view of the overall effort is based on what I have 
learned from NASA, which has convinced me that fission reactor 
technology is a key that will unlock new capabilities in space science. 
If this effort is assigned to us by the Administration and funded by 
Congress, our role should be to manage this work consistent with our 
practices for naval reactor plants. If we are not in charge, I believe 
that our role should be limited to occasional peer review.
    Question. Do you agree that the other NNSA labs with expertise in 
nuclear systems for space should play a strong role in this effort?
    Answer. Yes, the NR program does not possess all the technical 
expertise and facilities needed to execute this task entirely within 
Naval Nuclear Propulsion program national laboratories. Consistent with 
our practice for other advanced development efforts, NR would seek to 
leverage existing expertise and facilities at NNSA labs, other DOE 
labs, and in Industry to accomplish this task most effectively and at 
the lowest cost to the taxpayer. However, this work would be managed 
and budgeted for through Naval Reactors Headquarters. We believe that 
strong centralized control is necessary for success in this area. 
Therefore, we would coordinate this effort through one or both of our 
existing single-customer laboratories, which would have the overall 
responsibility for integrating the reactor system and identifying the 
appropriate subcontractors (including DOE laboratories).
    Question. What terms and conditions would you want in order to 
manage the whole program?
    Answer. To be clear, NR has no interest in managing the entire NSI 
or JIMO efforts, both of which contain significant non-reactor work, in 
which Naval Reactors possesses no relevant expertise. If Congress and 
the Administration decided to assign this work to Naval Reactors, we 
would continue to do business the ``NR way.'' This means that NR should 
have complete financial, technical, and contractual control over the 
parts of the NSI for which we are responsible. To make that control 
effective, we would request a separate line in the DOE budget for space 
reactor work. This would also help ensure that our space and Navy 
responsibilities do not interfere with each other. We would use our 
successful practices in naval reactor design by assigning one of our 
single-customer laboratories the lead for integrating the reactor 
system. Finally, this work would be conducted so that no sensitive or 
classified naval nuclear propulsion information was disclosed. These 
terms are important for us to preserve our total ownership approach to 
doing business. I would request a letter from high levels in the 
Administration to assign this mandate to Naval Reactors, codifying 
these terms and conditions.
                           naval reactor labs
    Question. You have two outstanding engineering labs, the Bettis 
Atomic Power Lab and the Knolls Atomic Power Lab. Both of those labs 
went through contract competitions within the last 5 years. Did 
competing the contracts at your labs produce significant or notable 
improvements in performance?
    Answer. Competing Naval Reactors' labs resulted in lower combined 
cost to the government to run those facilities. In the Request for 
Proposal we asked that the successful bidder make any transition 
transparent to the laboratory workforce. Cost savings were principally 
through the ability to reduce contribution to corporate overhead. This 
workforce continues to deliver the same consistently high-quality 
engineering support for our nuclear fleet that it has for over 50 
years.
    Question. Can you elaborate on the Naval Reactors tradition as to 
how you manage your labs? I ask that with full knowledge that the 
weapons labs are much different animals from yours, but I ask just as a 
point of contrast.
    Answer. Naval Reactors' two national labs, Bettis Atomic Power 
Laboratory (Bettis), and Knolls Atomic Power Laboratory (KAPL), have 
made vital contributions to the Naval Reactors Program for more than 50 
years. It is difficult to isolate the factors that have led to this 
success, but several do stand out. First, our labs have a very focused 
mission: they only do work for this program and their general managers 
report directly to me. Second, my field offices use an effective audit 
and appraisal program that allows me to keep a close watch on the 
performance of our labs. Third, Naval Reactors benefits from a focused 
multi-year planning process, reviewed semiannually, as well as an 
annual technical work review. Experts in naval nuclear propulsion 
perform these reviews. Finally, Naval Reactors maintains a simple, 
technically talented, enduring, lean headquarters structure that allows 
us to oversee our responsibilities effectively. My headquarters staff 
retains clear, total responsibility for all aspects of naval nuclear 
propulsion, including management of the laboratories. Laboratory 
general managers report directly to me. By statute (Executive Order 
12344 codified in Public Laws 106-65 and 98-525) the Director of Naval 
Reactors is a four-star admiral with an 8-year tenure, as well as a 
deputy administrator in the NNSA/DOE. This is important for two 
reasons: it gives the director the stature to handle the issues that 
arise while overseeing such unforgiving technology and it gives him 
enough time to learn all the aspects of the job while providing 
leadership consistency.
                                 ______
                                 
               Questions Submitted by Senator Harry Reid
                            nuclear security
    Question. Ambassador Brooks, since September 11th NNSA has sent up 
numerous reprogramming requests to cover the costs of enhanced 
security, particularly for periods when the Nation has gone to Code 
Orange. Generally, we have been happy to approve these reprogrammings. 
However, I am concerned that we have seen lot of supplemental 
appropriations requests come to the Hill during the last few years and 
they rarely, if ever, have any funding for the NNSA. Given that you are 
the guardians of both our Nation's nuclear stockpile and also a 
tremendous amount of fissile nuclear material around the country, this 
concerns me. Is your organization not requesting additional funding for 
nuclear security? Is OMB simply denying your requests?
    Answer. While we continually work hard to establish a base 
Safeguards and Security program request that will be sufficient to 
effectively meet our annual security program requirements, we, like the 
rest of the Nation, are doing this against a backdrop of rapidly 
evolving threats of terrorism. Against this backdrop, we also continue 
to actively assess our programs to assure performance and readiness. 
Accordingly, budget changes within a year may be necessary. The fiscal 
year 2004 budget request for Safeguards and Security is sufficient to 
meet our currently known needs for ongoing Safeguards and Security 
activities. This request was developed with information from an 
assessment of the complex's needs following the September 11, 2001, 
attacks, and was formulated using the NNSA Planning, Programming, 
Budgeting and Evaluation process to assure that funding requests are 
closely linked to established program plans and balanced across NNSA.
    The requests for supplemental funding you mention have been related 
to emergent requirements that could not be accommodated within the base 
budget request--the ``unknown-unknowns.'' A good example is the amount 
of time we will spend this year at the elevated ``SECON 2'' security 
level at our sites. Rather than budget for this type of contingency, it 
is our policy to work within the base budget and accommodate what we 
can before requesting additional funding authority. The Administration 
endorses this approach and, in fact, supported two such requests for 
our S&S programs last year.
    Right now, we are looking at the increased costs we're incurring 
for site protection at the SECON 2 level. We are also expecting the DOE 
to issue in the near future, a revised, Design Basis Threat. Each of 
our sites will analyze their security postures and the range of 
activities that may need to be taken to best address the new threat 
guidance. The sites will also work throughout the coming year to 
identify areas of efficiencies and operational improvements that could 
reduce S&S costs while maintaining the level of protection we require.
    Throughout our efforts, we will try to accommodate S&S program 
needs within available funding. If increased funding is required, we 
will promptly work with the Congress.
    Question. What can we do to get the Administration to take the 
threat of loose nuclear material as seriously as they seem to take the 
threat of chemical or biological attack?
    Answer. The Bush Administration takes all threats posed by WMD 
seriously and has undertaken several major initiatives to address 
security risks arising from nuclear and radiological materials. 
Presidents Bush and Putin agreed last year to cooperate on ways to 
accelerate the elimination of excess nuclear materials. To supplement 
our ongoing programs to convert highly enriched uranium to nuclear 
reactor fuel and dispose of excess weapons plutonium, we are currently 
negotiating with Russia on several new initiatives that will increase 
the rate at which nuclear materials are converted to non-weapons usable 
forms. This year's G-8 summit meeting included a reaffirmation of 
commitments by the United States and its allies to supply up to $20 
billion of assistance to enable Russia to reduce proliferation risks, 
with the elimination of excess fissile materials identified as a 
priority area. Through the Materials Protection, Control, and 
Accounting program run by DOE's National Nuclear Security 
Administration, we have upgraded security at facilities and storage 
sites in Russia and other countries that contain hundreds of tons of 
weapons-usable nuclear material.
    Secretary Abraham hosted an international conference in March to 
identify steps that need to be taken globally to reduce the danger that 
terrorists could use radiological dispersion devices. DOE is actively 
engaged in assisting a number of countries to recover and safely 
dispose of abandoned radiological sources that pose a security threat. 
Domestically, the NRC is working to put in place improved security for 
radiological sources used for commercial, medical, or scientific 
purposes in the United States. DOE continues to operate the Off-Site 
Source Recovery Program, which has already retrieved and securely 
stored thousands of radioactive sources no longer needed for their 
original purposes.
                            nevada test site
    Question. The Nevada Test Site provided crucial capabilities to the 
Nation during the Cold War, and the Administration claims that this 
national asset must remain ready to undertake similar responsibilities 
if called upon. Yet, the levels of activity at the Test Site and the 
levels of employment have steadily diminished since the termination of 
nuclear testing. The only way I see to maintain the former capability 
is to establish new activities at the Test Site that require similar 
skills and facilities. Without that approach, the entire capability 
will evaporate. Older workers will depart through death and retirement, 
and without a stable and demanding mission new workers will not 
develop. Please tell me how your Administration plans to reverse the 
decline in morale and mission content at the Nevada Test Site.
    Answer. Since the moratorium on nuclear testing in 1992, the NTS 
has maintained the readiness to conduct testing if deemed necessary by 
the President. The skill mix needed for the readiness posture is 
complimentary to that needed to support Stockpile Stewardship program 
activities. By ensuring a continued robust subcritical experiment and 
other physics research program capabilities such as JASPER and Atlas at 
the NTS, historic skills and capabilities can be maintained.
    To date, 19 subcritical experiments have been successfully 
conducted at the NTS. The national laboratories rely on the technical 
expertise and scientific skills of NTS workers to maintain underground 
testing expertise and capability and to capture essential data from the 
subcritical experiments. Although we expect the number of subcritical 
experiments to decline over the next several years, the complexity of 
the experiments and need for advanced diagnostics will increase.
    NNSA is committed to continued use of the NTS and expansion of its 
missions as is evident in the relocation of the Atlas program to the 
NTS. Atlas is a high performance pulsed power machine and will be used 
to implode targets and measure the physical properties of weapons 
material. NNSA is committed to bringing this machine on line in Nevada 
and fielding experiments in support of the Stockpile Stewardship 
program.
    As other DOE/NNSA facilities face encroachment by population 
centers, we look to move those missions with greater need for remote 
and secure operations to the NTS. It is recognized that the NTS has 
sufficient infrastructure and security features that make it ideal for 
nonproliferation and national security related projects. A clear 
example is the planned relocation of the critical assembly work from 
Los Alamos to the NTS. These assemblies will complement the existing 
missions of the NTS by providing an additional training tool for 
emergency response personnel and those who work in nuclear 
environments.
    This administration continues to enhance and support nuclear-
related emergency response activities and is working closely with the 
newly-formed Department of Homeland Security (DHS) to fight terrorism. 
An ambitious DHS-sponsored program to train first responders and local 
emergency managers from throughout the country at the NTS continues to 
grow. Known as the National Center for Exercise Excellence, this 
program will graduate 6,000 students this year alone. Within NNSA, the 
existing NTS infrastructure is being modernized under current National 
Center for Combating Terrorism (NCCT) funding to accommodate this 
increase in student volume, and will ultimately enhance other national 
security programs. The Remote Sensing Laboratory has provided the great 
majority of radiological emergency response for the United States over 
the last 30 years. These scientists and engineers, in close partnership 
with the National Laboratories, are also developing the next generation 
of counterterrorism technology for the Department of Homeland Security.
                       nuclear weapons stockpile
    Question. Maintaining the safety and reliability of our nuclear 
weapons stockpile is technically difficult, even if we were still 
testing. The absence of testing makes this job even more difficult. I 
know that the work of our weapons scientists and engineers is mostly 
classified and carried out in secure facilities, but I suspect that 
most of the scientific and technical tools are very similar to those 
used for nonclassified research and development. Please tell me how the 
Administration is assuring benefit to the classified program from the 
enormous Federal investments in scientific and technical advances made 
by DOE's Office of Science, the National Science Foundation, the 
Department of Defense labs, Commerce's National Institute of Science 
and Technology, and others like the Justice Department and our 
intelligence agencies.
    Answer. NNSA firmly supports leveraging science and technology 
investments made by other Federal agencies. Let me provide just a few 
examples from our Accelerated Strategic Computing program:
  --Energy Sciences Network (ESNet).--The weapons program's SecureNet 
        relies heavily upon the Office of Science's ESNet as the 
        underlying infrastructure for wide area network communications.
  --High Performance Storage System (HPSS).--Developed through a 
        consortium including the Oak Ridge National Laboratory (ORNL), 
        the three weapons laboratories, and IBM Government Systems, 
        HPSS provides a high speed, parallel, network-centered system 
        for high performance storage. ASCI continues to rely on ORNL to 
        provide storage system management support.
  --Defense Threat Reduction Agency's PITHON.--This experimental 
        capability simulates hot x-rays by using a moderate energy 
        source. Data from this facility will be used as part of the 
        ASCI code verification and validation process.
  --National Security Agency Encryptors.--Development and early 
        production of UltraFastlanes through the National Security 
        Agency enabled sufficient data transfer rates to support 
        designer work at the labs.
  --National Science Foundation platforms.--Compute cycles from the 
        Blue Horizon platform at San Diego Supercomputing Center are 
        used to provide Stockpile Stewardship Alliance University 
        partners with access to unclassified supercomputing capability.
                       nonproliferation programs
    Question. The nonproliferation programs within your Administration 
are, for the most part, pursued by the same organizations that manage 
the weapons research anddevelopment. In fact, most of the 
nonproliferation scientists and engineers are either former or even 
present weapons specialists in the Stockpile Stewardship program. Yet, 
the management of these two activities within your administration is 
quite different. For example, definition of the stockpile stewardship 
program develops from a partnership between the Federal Government and 
the civilian specialists. Is the same approach used for 
nonproliferation activities?
    Answer. As for the approach for development of U.S. 
nonproliferation programs, the programs have evolved considerably over 
the last 10 years. The phrase ``partnership between the Federal 
Government and the civilian specialists'' may be somewhat misleading. 
The National Security Council sets the agenda for U.S. nonproliferation 
programs for the Executive Branch. However, the NNSA's nonproliferation 
programs have received considerable input from Nongovernmental 
Organizations (NGOs), Congress, and the Interagency. Also, milestones 
and events such as the fall of the Soviet Union, the crash of the 
Russian economy, accords by former Soviet States to abrogate nuclear 
weapons, the September 11, 2002, terrorist attacks and others have had 
major influence on the evolution of these programs. With 10 years of 
experience implementing nonproliferation programs in the former Soviet 
Union and in other countries around the world, the NNSA has developed a 
broad range of experts upon which to draw for expertise, both inside 
and outside of the NNSA.
    Question. Do you think that efficiencies and cost savings could be 
found by uniting these two programs into a single program, perhaps 
entitled Nuclear Security programs?
    Answer. By act of Congress, the National Nuclear Security 
Administration has three line organizations: Defense Programs, Defense 
Nuclear Nonproliferation, and Naval Reactors. Each program has a 
distinct mission, a unique set of skills to accomplish the mission, 
different stakeholders, and a dissimilar venue for performing the work. 
Naval Reactors has specific legislative mandates. Defense Programs and 
Defense Nuclear Nonproliferation, however, work quite independently to 
perform their missions, although there are some areas of mutual 
concern. Defense Programs carries out the Stockpile Stewardship Program 
and other missions primarily in the United States; Defense Nuclear 
Nonproliferation conducts its programs internationally. Defense 
Programs' primary customer is the Department of Defense while Defense 
Nuclear Nonproliferation works with U.S. allies to reduce the threat of 
weapons of mass destruction, keeping threats away from the U.S. shores.
    Congressional action to create the NNSA as a ``separately 
organized'' agency within the DOE provides for the management of 
nuclear weapons expertise and infrastructure under a single leader. 
Defense Programs and Defense Nuclear Nonproliferation organizations 
reflect the disparate missions of these organizations. A large part of 
the work for each program is accomplished at the three NNSA 
laboratories, Lawrence Livermore, Sandia, and Los Alamos. However, the 
NNSA national laboratories have organized in such a way that the 
expertise to support each program is provided by dedicated and 
specialized support because of the nature of the work for each program. 
Defense Nuclear Nonproliferation, moreover, uses resources of other 
laboratories and contractors outside of NNSA, including Pacific 
Northwest, Argonne, Brookhaven, and Oak Ridge National Laboratories in 
working in Russia and around the world.
    In those areas where mutual concerns of Defense Programs and 
Defense Nuclear Nonproliferation converge, such as international access 
to the U.S. nuclear weapons complex for treaty compliance, the NNSA is 
particularly well organized to perform the necessary interfaces to 
determine the best approach to accomplish both missions. Combining 
these organizations would be disruptive and blur the distinct missions 
of each organization. The structure of the NNSA provides for cost 
effective management of resources through delivery of services to the 
line organizations by the Offices of Management and Administration and 
Infrastructure and Security.

                         CONCLUSION OF HEARINGS

    Senator Domenici. Anything further?
    We stand in recess. Thank you all very much.
    [Whereupon, at 3:40 p.m., Thursday, April 10, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]
</pre></body></html>
